<html>
<title> - NATIONAL IMPERATIVES FOR EARTH AND CLIMATE SCIENCE RESEARCH AND APPLICATIONS INVESTMENTS OVER THE NEXT DECADE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     NATIONAL IMPERATIVES FOR EARTH
                    AND CLIMATE SCIENCE RESEARCH AND
                     APPLICATIONS INVESTMENTS OVER
                            THE NEXT DECADE

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2007

                               __________

                            Serial No. 110-3

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
33-104                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


                            C O N T E N T S

                           February 13, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Randy Neugebauer, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Richard A. Anthes, President, University Corporation for 
  Atmospheric Research (UCAR); Co-Chair, Committee on Earth 
  Science and Applications from Space, National Research Council, 
  The National Academies
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    26
    Financial Disclosure.........................................    27

Dr. Berrien Moore III, University Distinguished Professor, 
  Director, Institute for the Study of Earth, Oceans, and Space, 
  University of New Hampshire; Co-Chair, Committee on Earth 
  Science and Applications from Space, National Research Council, 
  The National Academies
    Oral Statement...............................................    28
    Written Statement............................................    29

Honorable James Geringer, Director of Policy and Public Sector 
  Strategy, Environmental Systems Research Institute (ESRI)
    Oral Statement...............................................    36
    Written Statement............................................    39
    Biography....................................................    55

Discussion
  Consequences of Earth Observation Drop-off.....................    56
  Priorities and Recommendations of Decadal Survey...............    57
  Improvement of Weather Forecasts...............................    58
  Details of Decadal Survey Recommendations......................    60
  Addressing Emerging Regional and Global Challenges.............    61
  Environmental Data and Ethanol Usage...........................    62
  Weather Prediction.............................................    63
  Restoration of Dropped NPOESS Instruments......................    64
  Record of Hurricane and Cyclone Intensity......................    66
  Need of Satellite System for Agricultural Production...........    66
  Consequences of Gaps in Data Records...........................    67
  Physical Improvements vs. Environmental Improvements...........    68
  Global Dimming.................................................    69
  Remote Sensing and Earthquake Activity.........................    70
  Potential for Private or International Partnerships in Remote 
    Sensing......................................................    71
  Impact on American Competitiveness.............................    74

              Appendix: Answers to Post-Hearing Questions

Dr. Richard A. Anthes, President, University Corporation for 
  Atmospheric Research (UCAR); Co-Chair, Committee on Earth 
  Science and Applications from Space, National Research Council, 
  The National Academies.........................................    78

Dr. Berrien Moore III, University Distinguished Professor, 
  Director, Institute for the Study of Earth, Oceans, and Space, 
  University of New Hampshire; Co-Chair, Committee on Earth 
  Science and Applications from Space, National Research Council, 
  The National Academies.........................................    83

Honorable James Geringer, Director of Policy and Public Sector 
  Strategy, Environmental Systems Research Institute (ESRI)......    87


    NATIONAL IMPERATIVES FOR EARTH AND CLIMATE SCIENCE RESEARCH AND 
             APPLICATIONS INVESTMENTS OVER THE NEXT DECADE

                              ----------                              


                       TUESDAY, FEBRUARY 13, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     National Imperatives for Earth

                    and Climate Science Research and

                     Applications Investments Over

                            the Next Decade

                       tuesday, february 13, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On February 13, 2007 the Committee on Science and Technology will 
hold a hearing to examine the findings and recommendations of the 
National Academies report ``Earth Science and Applications from Space: 
National Imperatives for the Next Decade and Beyond,'' also known as 
the Decadal Survey. The report recommends a prioritized set of 
investments in new satellite-borne instruments and spacecraft to gather 
Earth, atmospheric, and climate data. These new satellites would 
replace our aging space-based observing system to support national 
needs for research and monitoring of the dynamic Earth system during 
the next decade, as well as identifying important research and 
applications directions that should influence planning for the 
following decade.
    The Decadal Survey panel described the national strategy outlined 
in its report as having ``as its overarching objective a program of 
scientific discovery and development of applications that will enhance 
economic competitiveness, protect life and property, and assist in the 
stewardship of the planet for this and future generations.''
    The Committee will hear testimony from three witnesses. Two of the 
witnesses were the co-chairs of the Decadal Survey, and they will 
discuss the findings and recommendations of their report. The third 
witness will discuss the application of remote sensing data to meet 
agricultural, resource management, and other needs.

Background

    Although the development of decadal strategies for astronomy and 
astrophysics research has been the practice since the 1980s, the report 
examined at this hearing represents the first such decadal strategy to 
be developed for Earth science. The National Academies of Science and 
Engineering was asked to undertake the task by NASA's Office of Earth 
Science, NOAA's National Environmental Satellite Data and Information 
Service (NESDIS), and the U.S. Geological Survey (USGS) Geography 
Division. The study was overseen by an 18-member executive committee 
and carried out be seven thematically organized panels with a total of 
more than 80 members. The panels consisted of the following:

        1.  Earth Science Applications and Societal Needs

        2.  Land-use Change, Ecosystem Dynamics and Biodiversity

        3.  Weather (including space weather and chemical weather)

        4.  Climate Variability and Change

        5.  Water Resources and the Global Hydrologic Cycle

        6.  Human Health and Security

        7.  Solid-Earth Hazards, Resources and Dynamics

Major Findings and Recommendations of the Decadal Survey

Interim Report
    The Decadal Survey panel issued an interim report in the spring of 
2005, entitled Earth Science and Applications from Space: Urgent Needs 
and Opportunities to Serve the Nation. In that report, the panel made 
the following observations:

         ``The current U.S. civilian Earth observing system centers on 
        the environmental satellites operated by NOAA; the atmosphere-, 
        biospheres-, ocean-, ice-, and land-observation satellites of 
        NASA's Earth Observing System (EOS); and the Landsat 
        satellites, which are operated by a cooperative arrangement 
        involving NASA, NOAA, and the U.S. Geological Survey (USGS). 
        Today, this system of environmental satellites is at risk of 
        collapse. Although NOAA plans to modernize and refresh its 
        weather satellites, NASA has no plan to replace its EOS 
        platforms after their nominal six-year lifetimes end (beginning 
        with the Terra satellite in 2005), and it has canceled, 
        descoped, or delayed at least six planned missions, including 
        the Landsat Data Continuity Mission.

         ``These decisions appear to be driven by a major shift in 
        priorities at a time when NASA is moving to implement a new 
        vision for space exploration. This change in priorities 
        jeopardizes NASA's ability to fulfill its obligations in other 
        important presidential initiatives, such as the Climate Change 
        Research Initiative and the subsequent Climate Change Science 
        Program. It also calls into question future U.S. leadership in 
        the Global Earth Observing System of Systems, an international 
        effort initiated by the current Administration. The Nation's 
        ability to pursue a visionary space exploration agenda depends 
        critically on its success in applying knowledge of the Earth to 
        maintain economic growth and security at home.

         ``Moreover, a substantial reduction in Earth observation 
        programs today will result in a loss of U.S. scientific and 
        technical capacity, which will decrease the competitiveness of 
        the United States internationally for years to come. U.S. 
        leadership in science, technology development, and societal 
        applications depends on sustaining competence across a broad 
        range of disciplines that include the Earth sciences.''

Final Report
    In January 2007, the National Academies released the final report 
of the Decadal Survey panel. In the final report, the panel reiterated 
the concerns expressed in the Interim Report about the Nation's system 
of environmental satellites being ``at risk of collapse.'' In that 
regard, the final report states: ``In the short period since the 
publication of the Interim Report, budgetary constraints and 
programmatic difficulties at NASA and NOAA have greatly exacerbated 
this concern. At a time of unprecedented need, the Nation's Earth 
observation satellite programs, once the envy of the world, are in 
disarray.''
    The Decadal Survey panel made a series of recommendations in its 
report to address the perceived problems. The first was an overarching 
recommendation that:

<bullet>  The U.S. Government, working in concert with the private 
sector, academe, the public, and its international partners, should 
renew its investment in Earth observing systems and restore its 
leadership in Earth science and applications.

    Other major recommendations of the report are as follows:

<bullet>  NASA should ensure continuity of measurements of 
precipitation and land cover by:

          Launching the Global Precipitation Measurement (GPM) mission 
        in or before 2012

          Securing a replacement to Landsat 7 data before 2012

    The Landsat program has operated for over 30 years. Landsat images 
are used by governments, the research community, and the private sector 
in a wide variety of applications including monitoring of crop 
productivity, documenting changes in land use, water management, 
monitoring and tracking ``red'' tides, monitoring changes in coastal 
wetlands, citing power and transportation routes, monitoring changes in 
glacial features, and many other applications. The current Landsat 
instrument is in need of replacement. It is currently producing 
degraded imagery and may not have many more years of functionality.

<bullet>  In addition to implementing the re-baselined National Polar-
orbiting Operational Environmental Satellite System (NPOESS) and 
Geostationary Operational Environmental Satellite (GOES) program and 
completing research missions currently in development, NASA and NOAA 
should undertake a set of 17 recommended missions, comprised of small 
(<$300 million), medium ($300 million to $600 million), and large ($600 
million to $900 million) cost missions, and phased appropriately over 
the next decade. Larger facility-class (>$1 billion) missions are not 
recommended. [See Attachment 1 for list of recommended missions.]

    NOAA operates two satellite systems that collect data for weather 
forecasting. The polar satellites orbit the Earth and provide 
information for medium to long-range weather forecasts. The 
geostationary satellites gather data above a fixed position on the 
Earth's surface and provide information for short-range warnings and 
current weather conditions. Both of these systems are scheduled for 
replacement through the NPOESS and GOES-R programs, respectively.
    Significant cost and schedule problems have arisen in the NPOESS 
program. A number of instruments that would have provided continuity of 
our current Earth and climate monitoring programs were planned to fly 
on the NPOESS satellites were eliminated from the program to reduce its 
cost and complexity.
    The suite of 17 priority missions outlined by the NAS are intended 
to provide continuity of the Earth science and climate data sets as 
well as advance our understanding of the Earth system and climate.

<bullet>  U.S. civil space agencies should aggressively pursue 
technology development that supports the recommended missions; plan for 
transitions to continue demonstrably useful research observations on a 
sustained, or operational, basis; and foster innovative new space-based 
concepts.

    The above recommendation includes three main points: NASA, as the 
primary space research and development agency should increase funding 
allotted for the early design and testing phases of technology 
development that serves the research and operational missions 
recommended in this NAS report. The Panel believes that greater 
investments made early in the development of new instrumentation and 
spacecraft will result in more robust designs and prototypes which then 
move to development and deployment on a smoother, less risky path (and 
therefore with a more predictable budget).
    The Panel also recommends that NASA develop a new Program to take 
on newer, more risky projects and demonstrate their feasibility and 
applicability to research and operational needs. The NAS recommends 
this program focus on low-cost missions ($100-200 million) and that it 
have a strong focus on technical innovation as well as education and 
training of future scientists and engineers working in the field of 
Earth and climate science.
    Finally, the Panel recommended that NOAA allocate increased funding 
to support the transition of NASA-developed satellites and spacecraft 
that are identified as having operational utility to NOAA's missions.
    The transition from research to operations continues to be a 
problem for NOAA because there are no funds specified for the 
transition activities that must occur to move research satellites and 
spacecraft to operational status. Consequently, procurement programs 
for operational systems now often carry these costs resulting in higher 
risks of cost overruns, schedule slips, and higher risk of breaks in 
operational data for weather forecasting.

<bullet>  The NASA Science Mission Directorate should develop a science 
strategy for obtaining long-term, continuous, stable observations of 
the Earth system that are distinct from observations to meet 
requirements by NOAA in support of numerical weather prediction.

<bullet>  Earth system observations should be accompanied by a 
complementary system of observations of human activities and their 
effects on Earth, and socioeconomic factors should be considered in the 
planning and implementation of Earth observation missions and in 
developing the Earth Information System.

<bullet>  NOAA, working with the Climate Change Science Program and the 
international Group on Earth Observations, should create a climate data 
and information system to meet the challenge of ensuring the 
production, distribution, and stewardship of high-accuracy climate 
records from NPOESS and other relevant observational platforms.

<bullet>  As new Earth observation missions are developed, there must 
also be early attention to developing the requisite data processing and 
distribution system, and data archive. Distribution of data should be 
free or at low cost to users, and provided in an easily-accessible 
manner.

<bullet>  NASA should increase support of its Research and Analysis 
(R&A) program to a level commensurate with its ongoing and planned 
missions.

    Data gathered by satellite-based instruments and spacecraft must be 
properly documented, analyzed and archived to be useful. Funding for 
these activities has traditionally lagged behind funding for the 
hardware and software needed to build, launch and operate satellite-
based instruments and spacecraft. In addition to R&A cuts made as part 
of an overall budget-balancing exercise, cost-overruns experienced in 
the development and procurement of an observing system may lead to cuts 
in the funding allocated for analysis of the data generated by the 
observing system.

<bullet>  NASA, NOAA, and USGS should increase their support for Earth 
system modeling, including provision of high-performance computing 
facilities and support for scientists working in the areas of modeling 
and data assimilation.

<bullet>  A formal interagency planning and review process should be 
put into place that focuses on effectively implementing the 
recommendations made in the present decadal survey report and 
sustaining and building the knowledge and information system for the 
next decade and beyond.

<bullet>  NASA, NOAA, and USGS should pursue innovative approaches to 
educate and train scientists and users of Earth observations and 
applications. A particularly important role is to assist educators in 
inspiring and training students in the use of Earth observations and 
the information derived from them.

Witnesses

Dr. Richard Anthes, President of the University Corporation for 
Atmospheric Research (UCAR):

    Dr. Anthes served as Co-Chair of the Decadal Survey. He has 
conducted research directed at better understanding of tropical 
cyclones and mesoscale meteorology, as well as on techniques for doing 
atmospheric sounding. He chaired the 2003 National Academies Committee 
on NASA-NOAA Transition of Research to Operations. Dr. Anthes is a 
fellow of the American Meteorological Society and the American 
Geophysical Union.

Dr. Berrien Moore, Professor and Director of the Institute for the 
Study of Earth, Oceans, and Space at the University of New Hampshire:

    Dr. Moore served as Co-Chair of the Decadal Survey. His research 
has focused on the carbon cycle, global biogeochemical cycles, and 
global change. Dr. Moore has served on a number of NASA advisory 
committees, and he chaired the Scientific Committee of the 
International Geosphere-Biosphere Programme (IGBP) from 1998-2002. He 
currently serves on the Science Advisory Board of NOAA and the Advisory 
Board of the National Center for Atmospheric Research (NCAR).
    Dr. Anthes and Dr. Moore will discuss the criteria the Decadal 
Survey Committee used to determine the priorities recommended in the 
Report. They will also discuss the utility of the research and 
application activities to the Nation and the international community. 
Dr. Anthes and Dr. Moore will also provide an assessment of the 
President's FY 2008 budget request for NASA and NOAA as they relate to 
the recommendations included in the Decadal Survey Report.

Honorable James Geringer, Director of Policy at the Environmental 
Systems Research Institute in Wyoming and former Governor of Wyoming:

    Former Wyoming Governor James Geringer has been active in the 
Alliance for Earth Observations and was the force behind the Western 
Governors Association's call for a National Integrated Drought 
Information System (NIDIS).
    Governor Geringer will discuss the utility of data derived from the 
current Earth observing systems we have in place. He will discuss the 
applicability of remote sensing data to agriculture, natural resource 
management, municipal water supply management, and to tourism and 
recreation. The Governor will provide information regarding the 
accessibility of remote sensing data to different user communities and 
discuss the role of private sector companies that provide value-added 
products from remote sensing data. He will also provide a perspective 
on how widely remote sensing data are used by government and industry 
people working in agriculture and natural resource management.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. It is 10 o'clock and time to get started, 
so good morning, everyone. I would like to welcome our 
witnesses to today's hearing. We look forward to hearing your 
views.
    As you know, last week the Science and Technology Committee 
held the first hearing in Congress on the just-released report 
of the Intergovernmental Panel on Climate Change (IPCC). That 
hearing provided a useful glimpse into the current scientific 
understanding of climate change.
    It is clear that the advances in our scientific 
understanding of climate change are critically dependent on the 
data collection and modeling enabled by our investments in 
Earth science research and applications at NOAA and NASA. In 
addition, those investments play a crucial role in improving 
the accuracy of our weather forecasts, monitoring land use, and 
managing our natural resources.
    In short, this nation needs to continue to invest in robust 
systems of environmental satellites.
    Two witnesses--or rather two years ago, one of today's 
witnesses, Dr. Berrien Moore, stated that the Interim Report of 
the National Academies' Decadal Survey had concluded that the 
Nation's system of environmental satellites was, and I quote, 
``at risk of collapse.'' That was a sobering assessment.
    Now the Decadal Survey is finished, and we will be hearing 
their findings and recommendations today.
    One of those findings is particularly troubling. And once 
again, I quote: ``In the short period since the publication of 
the Interim Report, budgetary constraints and programmatic 
difficulties at NASA have greatly exacerbated this concern. At 
a time of unprecedented need, the Nation's Earth observation 
satellite programs, once the envy of the world, are in 
disarray.''
    I don't think the National Academies could be clearer than 
that in voicing its concern. So at today's hearing, I want to 
get answers to the following questions.
    When the Decadal Survey panel says that the Nation's Earth 
observation satellite programs ``are in disarray,'' what does 
that mean in specific terms?
    What is the impact of that disarray, and why does it 
matter?
    And, what needs to be done to fix this situation?
    Of course, in these times of tight budgets, some will look 
at the Academies' recommendations and simply say, ``We can't 
afford to do more than we are now.'' However, the simple fact 
of the matter is that our nation is getting ready to spend a 
lot of money to deal with climate change in the coming years, 
both public dollars and private dollars.
    We will continue to need good data to make sure that those 
investments are wise ones and that we are getting the intended 
results. I am worried that we are going to be ``flying blind'' 
if we don't ensure that the Nation's environmental satellite 
system is up to the task of collecting critical climate science 
data, and the Decadal Survey is sounding the alarm that unless 
we take steps to reverse the current decline, we aren't going 
to have the satellite system we need in the coming decade.
    And we have got a lot to discuss today, so I want to 
welcome our witnesses, and now, I want to recognize Ranking 
Member Hall for any opening remarks that he would like to make.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning.
    I'd like to welcome our witnesses to today's hearing.
    We look forward to hearing your views.
    As you know, last week the Science and Technology Committee held 
the first hearing in Congress on the just-released report of the 
Intergovernmental Panel on Climate Change (IPCC).
    That hearing provided a useful glimpse into the current scientific 
understanding of climate change.
    It is clear that advances in our scientific understanding of 
climate change are critically dependent on the data collection and 
modeling enabled by our investments in Earth science research and 
applications at NASA and NOAA.
    In addition, those investments play a crucial role in improving the 
accuracy of our weather forecasts, monitoring land use, and managing 
our natural resources.
    In short, this nation needs to continue to invest in a robust 
system of environmental satellites.
    Two years ago, one of today's witnesses, Dr. Berrien Moore, stated 
that the Interim Report of the National Academies' Decadal Survey had 
concluded that the Nation's system of environmental satellites was ``at 
risk of collapse.''
    That was a sobering assessment.
    Now the Decadal Survey is finished, and we will be hearing their 
findings and recommendations today.
    One of those findings is particularly troubling.
    Namely: ``In the short period since the publication of the Interim 
Report, budgetary constraints and programmatic difficulties at NASA 
have greatly exacerbated this concern. At a time of unprecedented need, 
the Nation's Earth observation satellite programs, once the envy of the 
world, are in disarray.''
    I don't think the National Academies could be any clearer than that 
in voicing its concern.
    So at today's hearing, I want to get answers to the following 
questions:

        <bullet>  When the Decadal Survey panel says that the Nation's 
        Earth observation satellite programs ``are in disarray,'' what 
        does that mean in specific terms?

        <bullet>  What is the impact of that disarray, and why does it 
        matter?

        <bullet>  And, what needs to be done to fix the situation?

    Of course, in these times of tight budgets, some will look at the 
Academies recommendations and simply say ``we can't afford to do more 
than we are now.''
    However, the simple fact of the matter is that the Nation is 
getting ready to spend a lot of money to deal with climate change in 
the coming years.
    We will continue to need good data to make sure that those 
investments are wise ones and that we are getting the intended results.
    I'm worried that we are going to be ``flying blind'' if we don't 
ensure that the Nation's environmental satellite system is up to the 
task of collecting critical climate science data. . .and the Decadal 
Survey is sounding the alarm that unless we take steps to reverse the 
current decline, we aren't going to have the satellite system we will 
need in the coming decade.
    Well, we have a lot to discuss today.
    I again want to welcome our witnesses, and I now want to recognize 
Ranking Member Hall for any opening remarks he would care to make.

    Mr. Hall. Mr. Chairman, I want to thank you for calling 
today's hearing to examine the recently released Decadal Survey 
on Earth Sciences, produced by the National Academies. This 
report, which provides strategic advice to the government on 
the scope and goals of future Earth-observing missions, 
especially those flown by NASA and NOAA, will need great help 
to guide the federal investment decisions now and in the years 
ahead of us.
    I want to begin by thanking Dr. Anthes and Dr. Moore and 
all your colleagues that served with you on the National 
Academies committee. Drafting the first ever of such a report 
could not have been easy, but I am certain that the community 
is stronger, and I thank you for it, and perhaps more cohesive 
as a result. And I hope you will tell your friends and 
colleagues that we are grateful for their very hard work.
    Governor Geringer, thank you for taking time from your very 
busy schedule today to describe how remote sensing data and 
products are used by industry and government. I want to add, 
parenthetically, that in my State of Texas and for many 
residents in the western states, monitoring and measuring 
drought conditions is rapidly gaining importance.
    During the last Congress, I was able to work with my 
friends here in the House to draft and pass a bill establishing 
the National Integrated Drought Information System, and I am 
glad that the President agreed to sign it into law. But having 
said that, to many in this room, weather forecasting products 
are about all we understand. Governor--we look forward to your 
testimony, and those of you who ran your governments about the 
numerous other applications of remote sensing information.
    Beyond articulating the science questions and missions, the 
Survey challenges the government to reassess the amount of 
funding dedicated to Earth science. It urges government to 
increase investment in NASA's Earth sciences program by $500 
million a year, about a 33 percent increase over current 
levels.
    This presents the Administration and Congress with a 
tremendous challenge. It is no mystery to everyone in this room 
that NASA is struggling to afford its current slate of 
programs, from human space flight to aeronautics, astrophysics, 
planetary sciences, and redirecting funding from any of these 
activities is not an option. We need all of them. Either NASA 
maintains the status quo with, perhaps, marginal adjustments in 
content to its Earth sciences program or its top-line funding 
should be increased. And I strongly prefer the latter. I think 
that is what we have to do. We have to increase these fundings.
    The report also recommends new missions for NOAA that would 
total $565 million over the next 10 years. I hope the witnesses 
will help us understand what weather forecasting improvements 
these missions would provide and why the Decadal Survey 
recommends them.
    In closing, Mr. Chairman, I do want to be clear. I support 
the Decadal Survey and its recommendations. It lays out a 
course of research that should be followed. It raises questions 
that are of immediate importance to our way of living, and, if 
truly implemented, it will provide planning tools that will 
help future generations monitor and mitigate the effect of 
changes to Earth's weather system. Unfortunately, in the 
current budget climate, I fear we cannot fully implement the 
recommendations. And in that vein, I intend to ask hard 
questions today about which of the recommendations and missions 
are most important.
    I look forward to hearing from our witnesses and yield back 
the balance of my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, thank you for calling today's hearing to examine the 
recently released Decadal Survey on Earth Sciences produced by the 
National Academies. This report, which provides strategic advice to the 
government on the scope and goals of future Earth observing missions, 
especially those flown by NASA and NOAA, will be help guide federal 
investment decisions now and in the years to come.
    I want to begin by thanking Dr. Anthes and Dr. Moore, and all your 
colleagues that served with you on the National Academies committee. 
Drafting the first-ever such report could not have been easy, but I am 
certain the community is stronger, and perhaps more cohesive as a 
result, and I hope you'll tell your friends and colleagues that we are 
grateful for their hard work.
    Governor Geringer, thank you for taking time from your busy 
schedule to be with us today to describe how remote sensing data and 
products are used by industry and government. I want to add, 
parenthetically, that in my State of Texas, and for many residents in 
the western states, monitoring and measuring drought conditions is 
rapidly gaining importance. During the last Congress I was able to work 
with my friends here in the House to draft and pass a bill establishing 
the National Integrated Drought Information System, and I'm glad the 
President agreed to sign it into law.
    But having said that, to many in this room, weather forecasting 
products are about all we understand. Governor, we look forward to your 
testimony about the numerous other applications of remote sensing 
information.
    Beyond articulating the science questions and missions, the survey 
challenges government to reassess the amount of funding dedicated to 
Earth science. It urges government to increase investment in NASA's 
Earth Sciences program by $500 million a year, about a 33 percent 
increase over current levels. This presents the Administration and 
Congress with a tremendous challenge. It's no mystery to everyone in 
this room that NASA is struggling to afford its current slate of 
programs, from human space flight to aeronautics, astrophysics, 
planetary sciences, and heliophysics. Redirecting funding from any of 
these activities is not an option. Either NASA maintains the status 
quo, with perhaps marginal adjustments in content to its Earth Sciences 
program, or its top-line funding should be increased. I strongly prefer 
the latter.
    The report also recommends new missions for NOAA that would total 
$565 million over the next ten years. I hope the witnesses will help us 
understand what weather forecasting improvements these missions would 
provide and why the Decadal Survey recommends them.
    In closing, Mr. Chairman, I do want to be clear; I support the 
Decadal Survey and its recommendations. It lays out a course of 
research that should be followed. It raises questions that are of 
immediate importance to our way of living, and if fully implemented, it 
will provide planning tools that will help future generations monitor, 
and mitigate the effects of changes to Earth's weather systems. 
Unfortunately, in the current budget climate I fear we cannot fully 
implement the recommendations and in that vein I intend to ask hard 
questions today about which of the recommendations and missions are 
most important.
    I look forward to hearing from our witnesses and yield back the 
balance of my time.

    Chairman Gordon. Thank you, Mr. Hall.
    I ask unanimous consent that all additional opening 
statements be submitted by the Committee Members to be included 
in the record. Without Mr. Sensenbrenner's objection, so 
ordered.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you Mr. Chairman for calling this hearing to 
examine the findings and recommendations of the National Academies 
report ``Earth Science and Applications from Space: National 
Imperatives for the Next Decade and Beyond,'' also known as the Decadal 
Survey.
    Today's report represents the first decadal strategy developed for 
Earth Science. The Survey Panel has made a series of recommendations to 
address the perceived problems regarding our nation's system of 
environmental satellites. I am aware that budgetary constraints and 
programmatic difficulties at the National Aeronautics and Space 
Administration (NASA) and the National Oceanic and Atmospheric 
Administration (NOAA) have contributed to the degradation of our Earth 
observation programs, specifically the NOAA satellites for data 
collection and forecasting.
    I recognize that our nation's ability to pursue a visionary space 
exploration agenda depends on its success in applying greater knowledge 
of the Earth and I look forward to hearing the panel's recommendations. 
Further, I am interested in hearing the witnesses' thoughts on how the 
U.S. Government should proceed with funding for Earth Science and 
Climate Science Research for the upcoming fiscal year and beyond.
    I look forward to the testimony of today's witnesses.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Last week, we heard from some of the world's top scientists about 
the growing threat of global warming who reported to this committee 
some of the important findings of the International Panel on Climate 
Change.
    I think many of us were concerned about what they had to say, and 
troubled by the scientific data that demonstrates the threat of global 
warming and climate change isn't simply a threat--it's happening all 
across the world.
    I got a sense from my colleagues at that hearing that many in this 
Congress on both sides of the aisle believe that the United States has 
an important and unique role to play in solving the climate crisis.
    The United States is a world leader in scientific discovery and 
innovation, and I think that most of the American people would agree 
that we should use our unique spirit and ingenuity for good.
    We have especially succeeded when it comes to space exploration. We 
put a man on the Moon, have discovered so much about our galaxy, and 
the universe. We have worked with the international community to build 
a space station.
    Yet not all of the important things we have discovered are about 
space. We have also learned about ourselves, and the planet Earth.
    NASA and NOAA satellites have been instrumental in monitoring so 
many things about the Earth. Everything from temperatures and wind 
patterns to changes in land, ocean tides, and glacial features--and so 
much more.
    The Earth observation systems we use are critical to enhancing our 
understanding of the planet, and critical to understanding how global 
warming is affecting all of us.
    The Decadal Survey report that these observation systems are at 
``the risk of collapse'' and are in ``disarray'' is unacceptable. The 
report makes clear that the state of these systems is because of 
``major shift in priorities'' by the Administration. If that's the 
case, it's time for new priorities.
    I'm encouraged by the recommendations of the Decadal Survey panel 
that we should invest in the technology that will grow our ability to 
make further scientific discoveries, and I look forward to hearing 
their testimony today.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    It takes a tenacious group of people to scrutinize our Earth 
observational challenges and to make recommendations on what we might 
do to ensure we are able to improve our forecasting and observational 
capabilities. I am pleased the members of the Decadal Survey committee 
were up to the task. The findings of the report are a wake-up call and 
will help scientists and policy-makers consider future missions flown 
by NASA and NOAA in addition to understanding the consequences of gaps 
in our observational capabilities.
    I am especially concerned about the future capabilities of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) and am glad that the Decadal Survey Committee has not endorsed 
many of the proposed cost-cutting measures to limit the escalating 
costs of the program. I realize NPOESS has been plagued by cost-
overruns, but I believe we have to carefully weigh the long-term impact 
of removing NPOESS sensors on our global environmental monitoring 
capabilities. NPOESS oversight will continue by this committee and we 
welcome your survey's wisdom in determining the most strategic future 
for the program.
    Finally, coherent integration is imperative in successful 
observation, and I look forward to learning more about how we can 
ensure that the consumers of Earth observation information can use this 
data. I thank our witnesses for being here today and look forward to 
their testimony.

    [The prepared statement of Mr. Neugebauer follows:]

         Prepared Statement of Representative Randy Neugebauer

Mr. Chairman:

    Thank you for holding this hearing. I welcome the opportunity to 
take part in this important discussion and look forward to hearing from 
our distinguished panelists.
    As we discovered from the hearing last week, climate change is an 
extremely important issue, yet controversial at the same time. While 
most of us agree that global warming is occurring, there are disputes 
regarding the cause and degree of this change. Part of this 
disagreement stems from the evolving nature of science.
    Science is a process of constant re-evaluation of old hypotheses 
and theories, collection of new data, and continuous development of new 
models and approaches to critical questions. In order to properly 
understand climate change, it is critical that we have access to 
accurate data and technology. Therefore, I look forward to hearing the 
expert testimonies and recommendations of the panelists regarding the 
satellite technology we need to continue to gather accurate Earth, 
atmospheric, and climate data.
    For many years the U.S. has led the world when it comes to space 
exploration and scientific development. I look forward to working with 
my colleagues in this regard to ensure that the U.S. will continue to 
be a global leader of research, technology, and innovation.
    We in Congress, and in this committee especially, are called upon 
to make scientific and environmental policy that will affect our 
economy; our security; and our general welfare; and not just for us, 
but for future generations of Americans, as well.
    Thank you.

    Chairman Gordon. We are fortunate to have three 
distinguished witnesses at today's hearing. I will now yield to 
Representative Udall to introduce the first witness.
    Mr. Udall. Thank you, Mr. Chairman. Good morning.
    It is my privilege to introduce Dr. Richard Anthes today. 
He is the President of the University Corporation for 
Atmospheric Research, otherwise known as UCAR, a non-profit 
consortium of 70 member universities that award Ph.D.s in 
atmospheric and related sciences. He is the co-chair of the 
National Research Council's Earth Science Decadal Survey. Dr. 
Anthes is a highly-regarded atmospheric scientist, author, 
educator, and administrator who has contributed considerable 
research to the field. He has published over 100 peer-reviewed 
articles and books and participated on or chaired over 400--
excuse me, 40 different U.S./national committees. Dr. Anthes is 
currently President of the American Meteorological Society. His 
many research contributions involve particularly the areas of 
tropical cyclones and mezoscale meteorology, including the 
development of the first successful three-dimensional model of 
the tropical cyclone, which evolved into one of the world's 
most widely used mezoscale models, the Penn State NCAR 
Mezoscale Model, which is now in its fifth generation.
    Welcome, Dr. Anthes.
    Dr. Anthes. Thank you very much, Congressman Udall. I don't 
think I have ever been introduced by a Congressman before, and 
that saves me 30 seconds of my five minutes.
    I would like to start out with----
    Chairman Gordon. If you don't mind, sir, let us go ahead, 
and we will recognize the other witnesses----
    Dr. Anthes. Oh, okay.
    Chairman Gordon.--and then we will begin with you. But you 
are correct, you were well introduced there.
    Our second witness is Dr. Berrien Moore, who is the other 
co-chair of the National Academies' Decadal Survey. Dr. Moore 
is a Professor and Director of the Institute for the Studies of 
Earth, Oceans, and Space at the University of New Hampshire. 
Welcome.
    Our third witness is former Wyoming Governor, Dr. Jim--I 
mean, rather Jim Geringer. Governor Geringer has been very 
active in the Alliance for Earth Observations, and he was the 
force behind the Western Governors Association call for a 
National Integrated Drought Information System.
    I want to welcome each of you and look forward to your 
testimony.
    You will each be given five minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. With my friend, Mr. Rohrabacher's 
indulgence, I will say that we will try to be liberal with your 
five minutes, because this is very important, and we want to 
hear from you.
    When all three of you have completed your testimony, we 
will begin with questions. Each Member will have five minutes 
to question the panel.
    Doctor, we will begin with you.

   STATEMENT OF DR. RICHARD A. ANTHES, PRESIDENT, UNIVERSITY 
    CORPORATION FOR ATMOSPHERIC RESEARCH (UCAR); CO-CHAIR, 
    COMMITTEE ON EARTH SCIENCE AND APPLICATIONS FROM SPACE, 
       NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Anthes. Okay. Thank you very much.
    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee, thanks for inviting us here to testify here today.
    I would like--this is one of my favorite rooms in the whole 
world, because of that--the statement, ``Where there is no 
vision, the people perish,'' from Proverbs 29:18. I think that 
is what we need to keep our eye on, not the individual 
observations, not the individual dollars, but we really do need 
a vision for Earth science and applications from space. And I 
just love that saying. It is a perfect lead in.
    Our vision from our Decadal Survey is carried over, 
actually, from the Interim Report. And I want to read it to 
you. I think it is very important. I believe in it deeply. 
``Understanding the complex, changing planet on which we live, 
how it supports life, and how human activities affect its 
ability to do so in the future is one of the greatest 
intellectual challenges facing humanity. It is also one of the 
most important challenges for society as it seeks to achieve 
prosperity, health, and sustainability.''
    So this is the dual message, the dual vision of our report, 
that understanding the Earth is one of the most exciting 
intellectual challenges we can think of. And it is also 
critically important for applications of immediate and long-
term benefit to humanity.
    As detailed in our report and further emphasized by the 
latest issue of the IPCC, which came out a couple weeks ago, 
our society is faced with a number of profound scientific and 
societal challenges, including climate change and all of the 
aspects of the climate change that is occurring at an 
unprecedented rate. And yet, at a time when the need has never 
been greater, we are faced with an Earth observation program 
that will dramatically diminish in capability over the next 
five to ten years.
    As you mentioned already, our Interim Report said that the 
system of U.S. environmental satellites was at risk of 
collapse. This judgment was based on the observed precipitous 
decline in funding and the consequent cancellation, descoping, 
and delay of a number of critical missions and instruments.
    Otherwise, let me interject here and deviate from my 
prepared talk a little bit.
    This is not primarily about money and decreasing budgets. 
It is primarily about doing the job that needs to be done for 
society, and the modest investments that are required will 
repay themselves many times over. So please focus on the 
benefits to society, the intellectual challenges, and what we 
are proposing as a balanced system rather than the declining 
budgets.
    So I have been asked, you know, what will we lose if we 
don't do what the Decadal Survey mentions. And I think my 
colleague, Dr. Moore, will give you some examples, but let me 
just give you some examples that are not really in the Survey.
    Weather forecasts and warnings may start becoming less 
accurate. We have seen a tremendous run-up of increased 
accuracy in weather forecasting and warnings over the last 30 
years, primarily because of Earth observations from space. The 
Hurricane Katrina forecast was incredibly accurate, saving, 
perhaps, 100,000 lives, one of the few bright spots in that 
whole tragic episode. But we are actually in danger, if the 
observations continue to decrease, of losing that improving 
weather forecasts and warning capabilities. Very serious.
    The Earth is warming because of a small imbalance in 
radiation between the sun and the Earth, a very small 
difference between two very large terms. What is coming in from 
the sun, a huge number and what is going back out to space. We 
need to measure that small imbalance very accurately. We need 
to measure what is coming in from the sun and what is going out 
from the Earth so that we know whether the Earth is going to 
warm up faster, whether it is going to slow down in its warming 
up, and finally, when we reach a new equilibrium and there is 
no more change. Climate models have improved steadily over the 
past years, but they are far from perfect. They don't do very 
well on regional scales, which is what we are really interested 
in. Is the dryness in the west going to continue? Are 
hurricanes going to become more frequent or more intense? Those 
kinds of things. So we need the observations to improve the 
climate models. We could never rely on models without 
observations.
    Sea levels are rising, and the ice around the Earth is 
melting. But how fast? Is this going to accelerate--these 
things going to accelerate or decelerate, slow down? We have 
got to measure sea level and the ice around the Earth, 
especially in Greenland.
    As I mentioned, there is controversy about whether the 
frequency and intensity of tropical storms or hurricanes is 
going to increase or decrease. We simply don't know. And 
without observations, we won't be able to resolve that critical 
issue.
    And finally, Earth science is built fundamentally on 
observations, not theory and not models. And it will--it is 
impossible for me to sit here and predict what discoveries 
won't be made in the next 20 years if we don't have 
observation. I can't do that, but I can surely say that if the 
present trend of decreasing observations continues, we will--
the rate of scientific progress will be greatly slowed.
    So the plan we recommend calls for undertaking 17 new NASA 
and NOAA missions from the period 2008 to 2020 as well as 
restoring some of the capabilities lost on NPOESS and GOESS.
    Our recommendations for NASA can be implemented in a cost-
effective manner. I think my colleague, Dr. Moore, will talk 
about this. We are merely--to do the required program, and 
again, the required program is what is important, not the 
money, we need to simply restore the NASA Earth sciences budget 
to what it was five years ago.
    Finally, implementing these missions will not only greatly 
reduce the risks to the people of our country in the world of 
natural hazards of all kinds, it will support more efficient 
management of natural resources, including water, energy, 
fisheries, ecosystems that support the economy and our lives 
and--so that the cost of this program is repaid many times 
over.
    Thank you very much for the opportunity to appear before 
you today, and I look forward to any questions that you might 
have.
    Thank you.
    [The prepared statement of Dr. Anthes follows:]

                Prepared Statement of Richard A. Anthes

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me here to testify today. My name is 
Richard Anthes, and I am the President of the University Corporation 
for Atmospheric Research, a consortium of 70 research universities that 
manages the National Center for Atmospheric Research, on behalf of the 
National Science Foundation, and additional scientific education, 
training and support programs. I am also the current President of the 
American Meteorological Society. I appear today in my capacity as Co-
Chair of the National Research Council (NRC)'s Committee on Earth 
Science and Applications from Space: A Community Assessment and 
Strategy for the Future.
    The National Research Council is the unit of the National Academies 
that is responsible for organizing independent advisory studies for the 
Federal Government on science and technology. In response to requests 
from NASA, NOAA, and the USGS, the NRC has recently completed a 
``decadal survey'' of Earth science and applications from space. 
(``Decadal surveys'' are the 10-year prioritized roadmaps that the NRC 
has done for 40 years for the astronomers; this is the first time it is 
being done for Earth science and applications from space.) Among the 
key tasks in the charge to the decadal survey committee were to:

        <bullet>  Develop a consensus of the top-level scientific 
        questions that should provide the focus for Earth and 
        environmental observations in the period 2005-2020; and

        <bullet>  Develop a prioritized list of recommended space 
        programs, missions, and supporting activities to address these 
        questions.

    The NRC survey committee has prepared an extensive report in 
response to this charge, which I am pleased to be able to summarize 
here today. Over 100 leaders in the Earth science community 
participated on the survey steering committee or its seven study 
panels. It is noteworthy that this was the first Earth science decadal 
survey, and the committee and panel members did an excellent job in 
fulfilling the charge and establishing a consensus--a task many 
previously considered impossible. A copy of the full report has also 
been provided for your use.
    The committee's vision is encapsulated in the following 
declaration, first stated in the committee's interim report, published 
in 2005:

         ``Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
        prosperity, health, and sustainability.''

    As detailed in the committee's final report, and as we were 
profoundly reminded by the latest report from the International Panel 
on Climate Change (IPCC), the world faces significant and profound 
environmental challenges: shortages of clean and accessible freshwater, 
degradation of terrestrial and aquatic ecosystems, increases in soil 
erosion, changes in the chemistry of the atmosphere, declines in 
fisheries, and above all the rapid pace of substantial changes in 
climate. These changes are not isolated; they interact with each other 
and with natural variability in complex ways that cascade through the 
environment across local, regional, and global scales. Addressing these 
societal challenges requires that we confront key scientific questions 
related to ice sheets and sea level change, large-scale and persistent 
shifts in precipitation and water availability, transcontinental air 
pollution, shifts in ecosystem structure and function in response to 
climate change, impacts of climate change on human health, and 
occurrence of extreme events, such as hurricanes, floods and droughts, 
heat waves, earthquakes, and volcanic eruptions.

    Yet at a time when the need has never been greater, we are faced 
with an Earth observation program that will dramatically diminish in 
capability over the next 5-10 years.

    Last April, my co-chair, Dr. Berrien Moore, came before Congress to 
testify in response to release of the committee's 2005 interim report. 
His testimony highlighted the key roles played by NASA and NOAA over 
the past 30 years in advancing our understanding of the Earth system 
and in providing a variety of societal benefits through their 
international leadership in Earth observing systems from space. He 
noted that while NOAA had plans to modernize and refresh its weather 
satellites, NASA had no plans to replace its Earth Observing System 
platforms after their nominal six year lifetimes end. He also noted 
that NASA had canceled, scaled back, or delayed at least six planned 
missions, including a Landsat continuity mission. This led to the main 
finding in the interim report, which stated ``this system of 
environmental satellites is at risk of collapse.''
    Since the publication of the interim report, the Hydros and Deep 
Space Climate Observatory missions were canceled; the flagship Global 
Precipitation Mission was delayed for another two and a half years; 
significant cuts were made to NASA's Research and Analysis program: the 
NPOESS Preparatory Project mission was delayed for a year and a half; a 
key atmospheric profiling sensor planned for the next generation of 
NOAA geostationary satellites was canceled; and the NPOESS program 
breached the Nunn-McCurdy budget cap. As you have all heard, the 
certified NPOESS program delays the first launch by three years, 
eliminates two of the planned six spacecraft, and de-manifests or de-
scopes a number of instruments, with particular consequences for 
measurement of the forcing and feedbacks that need to be measured to 
understand the magnitude, pace, and consequences of global and regional 
climate change. It is against this backdrop that I discuss the present 
report.
    As you will see in the report, between 2006 and the end of the 
decade, the number of operating missions will decrease dramatically and 
the number of operating sensors and instruments on NASA spacecraft, 
most of which are well past their nominal lifetimes, will decrease by 
some 35 percent, with a 50 percent reduction by 2015 (see Figure 1 
below). Substantial loss of capability is likely over the next several 
years due to a combination of decreased budgets and aging satellites 
already well past their design lifetimes. This will result in an 
overall degradation of the system of Earth observing satellites, with 
the following potential consequences:

        <bullet>  After decades of steady improvement, weather 
        forecasts, including those of severe weather such as 
        hurricanes, may start becoming less accurate, putting more 
        people at risk and diminishing the proven economic value of 
        accurate forecasts.

        <bullet>  The ozone hole in the stratosphere has apparently 
        reached its maximum intensity. Models predict it will start to 
        slowly recover. Without observations we may not be able to 
        verify its recovery or explain why it is occurring.

        <bullet>  Earth is warming because of a small imbalance between 
        incoming solar radiation and outgoing radiation from Earth. 
        Measuring this small imbalance is critical to determining how 
        fast Earth is warming and when the warming will stop. Without 
        the measurements we are recommending will not be able to 
        quantify how this net energy imbalance is changing.

        <bullet>  Climate models have improved steadily over the years, 
        but are far from perfect. We need observations of the Earth 
        system, the atmosphere, oceans, land and ice to verify and 
        improve the climate models. These models have real impact on 
        the U.S. economy, in predicting El Nino and other seasonal 
        fluctuations in climate, which are used in energy, water and 
        agriculture management.

        <bullet>  Sea level is rising and ice around the world is 
        melting, yet there is uncertainty in how fast these are 
        occurring and whether or not they are accelerating or 
        decelerating. Without the observations we are recommending, we 
        will be unable to know for sure how these rates are changing 
        and what the implications will be for coastal communities.

        <bullet>  There is controversy about whether the frequency and 
        intensity of hurricanes are increasing as the climate warms; 
        observations of the atmosphere and oceans are required to 
        resolve this important issue.

        <bullet>  The risk of missing early detection of earthquakes, 
        tsunamis, and volcanic eruptions will increase.

        <bullet>  Air quality forecasts, which require the global 
        perspectives of satellites to identify pollution transport 
        across borders, will become less accurate, with negative 
        implications for both human health and urban pollution 
        management efforts.

        <bullet>  Earth science is based fundamentally on observations. 
        While it is impossible to predict what scientific advances will 
        not occur without the observations, or what surprises (like the 
        ozone hole) we will miss, we can be sure the rate of scientific 
        progress will be greatly slowed without a robust set of Earth 
        observations.

    In its report, the committee sets forth a series of near-term and 
longer-term recommendations in order to address these troubling trends. 
It is important to note that this report does not ``shoot for the 
Moon,'' and indeed the committee exercised considerable constraint in 
its recommendations, which were carefully considered within the context 
of challenging budget situations. Yet, while societal applications have 
grown ever-more dependent upon our Earth observing fleet, the NASA 
Earth science budget has declined some 30 percent in constant-year 
dollars since 2000 (see Figure 2 below). This disparity between growing 
societal needs and diminished resources must be corrected. This leads 
to the report's overarching recommendation:

         ``The U.S. Government, working in concert with the private 
        sector, academe, the public, and its international partners, 
        should renew its investment in Earth observing systems and 
        restore its leadership in Earth science and applications.''

    The report outlines near-term actions meant to stem the tide of 
capability deterioration and continue critical data records, as well as 
forward-looking recommendations to establish a balanced Earth 
observation program designed to directly address the most urgent 
societal challenges facing our nation and the world (see Figure 3 below 
for an example of how nine of our recommended missions support in a 
synergistic way one of the societal benefit areas--extreme event 
warnings). It is important to recognize that these two sets of 
recommendations are not an ``either/or'' set of priorities. Both near-
term actions and longer-term commitments are required to stem the tide 
of capability deterioration, continue critical climate data records, 
and establish a balanced Earth observation program designed to directly 
address the most urgent societal challenges facing our nation and the 
world. It is important to ``right the ship'' for Earth science, and we 
simply cannot let the current challenges we face with NPOESS and other 
troubled programs stop progress on all other fronts. Implementation of 
the ``stop-gap'' recommendations concerning NPOESS, NPP, and GOES-R are 
important--and the recommendations for establishing a healthy program 
going forward are equally as important. Satisfying near-term 
recommendations without placing due emphasis on the forward-looking 
program is to ignore the largest fraction of work that has gone into 
this report. Moreover, such a strategy would result in a further loss 
of U.S. scientific and technical capacity, which could decrease the 
competitiveness of the United States internationally for years to come.
    Key elements of the recommended program include:

        1.  Restoration of certain measurement capabilities to the NPP, 
        NPOESS, and GOES-R spacecraft in order to ensure continuity of 
        critical data sets.

        2.  Completion of the existing planned program that was used as 
        a baseline assumption for this survey. This includes (but is 
        not limited to) launch of GPM in or before 2012, securing a 
        replacement to Landsat 7 data before 2012.

        3.  A prioritized set of 17 missions to be carried out by NOAA 
        and NASA over the next decade (see Tables 1 and 2 below). This 
        set of missions provides a sound foundation for Earth science 
        and its associated societal benefits well beyond 2020. The 
        committee believes strongly that these missions form a minimal, 
        yet robust, observational component of an Earth information 
        system that is capable of addressing a broad range of societal 
        needs.

        4.  A technology development program at NASA with funding 
        comparable to and in addition to its basic technology program 
        to make sure the necessary technologies are ready when needed 
        to support mission starts over the coming decade.

        5.  A new ``Venture'' class of low-cost research and 
        application missions that can establish entirely new research 
        avenues or demonstrate key application-oriented measurements, 
        helping with the development of innovative ideas and 
        technologies. Priority would be given to cost-effective, 
        innovative missions rather than ones with excessive scientific 
        and technological requirements.

        6.  A robust NASA Research and Analysis program, which is 
        necessary to maximize scientific return on NASA investments in 
        Earth science. Because the R&A programs are carried out largely 
        through the Nation's research universities, such programs are 
        also of great importance in supporting and training next 
        generation Earth science researchers.

        7.  Sub-orbital and land-based measurements and socio-
        demographic studies in order to supplement and complement 
        satellite data.

        8.  A comprehensive information system to meet the challenge of 
        production, distribution, and stewardship of observational data 
        and climate records. To ensure the recommended observations 
        will benefit society, the mission program must be accompanied 
        by efforts to translate raw observational data into useful 
        information through modeling, data assimilation, and research 
        and analysis.

    Further, the committee is particularly concerned with the lack of 
clear agency responsibility for sustained research programs and the 
transitioning of proof-of-concept measurements into sustained 
measurement systems. To address societal and research needs, both the 
quality and the continuity of the measurement record must be assured 
through the transition of short-term, exploratory capabilities, into 
sustained observing systems. The elimination of the requirements for 
climate research-related measurements on NPOESS is only the most recent 
example of the Nation's failure to sustain critical measurements. 
Therefore, our committee recommends that the Office of Science and 
Technology Policy, in collaboration with the relevant agencies, and in 
consultation with the scientific community, should develop and 
implement a plan for achieving and sustaining global Earth 
observations. This plan should recognize the complexity of differing 
agency roles, responsibilities, and capabilities as well as the lessons 
from implementation of the Landsat, EOS, and NPOESS programs.
    Mr. Chairman, the observing system we envision will help establish 
a firm and sustainable foundation for Earth science and associated 
societal benefits through the year 2020 and beyond. It can be achieved 
through effective management of technology advances and international 
partnerships, and broad use of satellite science data by the research 
and decision-making communities. Our report recommends a path forward 
that restores U.S. leadership in Earth science and applications and 
averts the potential collapse of the system of environmental 
satellites. As documented in our report, this can be accomplished in a 
fiscally responsible manner, and I urge the committee to see that it is 
accomplished.
    Thank you for the opportunity to appear before you today. I am 
prepared to answer any questions that you may have.

Supporting Tables and Graphics

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Richard A. Anthes

    Since 1988 Dr. Richard Anthes has been President of the University 
Corporation for Atmospheric Research (UCAR). He is a highly regarded 
atmospheric scientist, author, educator and administrator who has 
contributed considerable research to the field. UCAR is a non-profit 
consortium of 70 member universities that award Ph.D.s in atmospheric 
and related sciences. UCAR manages the National Center for Atmospheric 
Research, in addition to collaborating with many international 
meteorological institutions.
    Dr. Anthes has published over 100 peer-reviewed articles and books 
and participated on or chaired over 40 different U.S. national 
committees. His many research contributions in the areas of tropical 
cyclones and mesoscale meteorology include the development of the first 
successful three-dimensional model of the tropical cyclone which 
evolved into one of the world's most widely used mesoscale models, the 
Penn State-NCAR mesoscale model, now in its fifth generation (MM5). In 
recent years he became interested in the radio occultation technique 
for sounding Earth's atmosphere and was a key player in the highly 
successful proof-of-concept GPS/MET experiment. This grew into an 
internationally sponsored project called COSMIC (Constellation 
Observing System for Meteorology, Ionosphere and Climate) which 
recently launched a globe-spanning constellation of six satellites, 
expected to improve weather forecasts, monitor climate change, and 
enhance space weather research.
    Dr. Anthes has also received numerous awards for his sustained 
contributions to the atmospheric sciences. In October 2003 he was 
awarded the Friendship Award by the Chinese government, the most 
prestigious award given to foreigners, for his contributions over the 
years to atmospheric science and weather forecasting in China. He is 
Co-Chair of the National Research Council's Committee on Earth Science 
and Applications from Space: National Imperatives for the Next Decade 
and Beyond. Dr. Anthes is currently President of the American 
Meteorological Society.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. Thank you. Right on time.
    Dr. Moore.

 STATEMENT OF DR. BERRIEN MOORE III, UNIVERSITY DISTINGUISHED 
PROFESSOR, DIRECTOR, INSTITUTE FOR THE STUDY OF EARTH, OCEANS, 
AND SPACE, UNIVERSITY OF NEW HAMPSHIRE; CO-CHAIR, COMMITTEE ON 
 EARTH SCIENCE AND APPLICATIONS FROM SPACE, NATIONAL RESEARCH 
                COUNCIL, THE NATIONAL ACADEMIES

    Dr. Moore. Mr. Chairman, Mr. Chairman, Ranking Minority 
Member, and Members of the Committee, thank you inviting--for 
inviting me to testify today.
    I would like to repeat what my colleague, Rick Anthes, 
said. At a time when the need has never been greater, we are 
faced with an Earth observation program that will dramatically 
diminish in capability over the next five to ten years.
    Now we can ask, ``Why did this occur?'' Simply stated, the 
NASA Earth science budget declined, in real terms, by a third 
from the year 2000 to now. And as you well know, technical and 
managerial difficulties in the NPOESS program offset the budget 
increases for NOAA's planned satellites over the same period. 
And regardless of where or whether blame is placed, we are 
still in the same situation. That is where we are.
    The Survey set forth a strategy for a strong, balanced 
national program in Earth science to reverse this trend. It 
recommends, as Rick said, that the Nation commit to leadership 
in Earth's observations in part through implementing a series 
of 17 missions carefully chosen to augment and replace our 
aging satellite fleet. The set of recommended 15 new missions 
to NASA may seem large numerically, but we believe that through 
focusing on smaller missions and avoiding large, multi-
instrumented platforms, a robust strategy for the future of 
Earth science can be achieved with reasonable investments. As 
Rick Anthes just said, the program could be restored if we 
could just simply get back to the year 2000 levels.
    I would like to call attention to what happened. It is in 
my written testimony. To show this 33 percent decline in real 
terms from 2000 to the present.
    What about the future?
    Is the President's fiscal year 2008 budget adequately 
preparing us for the future?
    In short, no.
    The President's budget provides only a brief respite to a 
dramatically diminished observational system. The respite, 
lasting until 2010, does allow us to move forward with plans to 
measure global rainfall, the Global Precipitation Mission, and 
general land cover characteristics to the Landsat, but by 2012, 
the budget will leave NASA's Earth science with nearly 50 
percent less buying power in comparison to the year 2000 and 
unable to pursue the critical topics just described by my 
colleague. The fall by 2012 will put us at a 20-year low in 
real terms for Earth science.
    NOAA's budget also appears to be inadequate to solve the 
cost of growth within the NPOESS and GOES-R programs and to 
mitigate some of the NPOESS losses by reinstating the solar and 
Earth radiation measurements, which, as Rick just said, are 
central to the climate system. Reinstating the high-resolution 
measurements of the atmospheric ozone profiles, a key 
measurement to allow to understand the post-CFC era, and 
realizing an operational active radar-based measurement of sea 
surface winds.
    Can anything be done now about the Committee's 
recommendations for the next decade?
    Definitely, yes.
    For instance, the Survey presented a set of guidelines for 
managing the implementation of the new missions that included 
early investments in technologies. This is an opportunity for 
the new decade, starting now. NASA should consider investing 
$10 million per year per mission across the first half of the 
15 missions. That takes an investment of $70 million. With that 
investment, we could actually begin to implement the Decadal 
Survey right now.
    It would also send a message that we are proceeding to 
develop the needed and recommended Earth observing program. 
These investments would avoid technological surprises that have 
plagued other programs. And I think that, in itself, is a 
reason to go forward with that kind of technology-based 
building.
    Now how can we justify increasing resources in this time of 
particularly difficult budget issues, as Congressman Hall 
noted?
    I believe it is because of the benefits: more reliable 
forecasts of infectious diseases; the identification of active 
faults and the monitoring of crustal movements to improve 
building code designs in earthquake-prone regions; better 
weather forecasts, particularly for severe storms; climate 
predictions based on better understanding of carbon sources and 
sinks, ocean temperature, ice sheet volume changes, and, as we 
have noted, the inputs from the sun and the thermal response of 
the Earth; enhanced precipitation and drought forecasts to 
improve water quality management and water resource management; 
and improved land-use agriculture to ocean productivity 
forecasts for better planning harvest cycles; and finally, more 
reliable air quality forecasts to enable effective urban 
pollution management and to protect the elderly and other 
populations at risk.
    Thank you very much, and I will be happy to answer any 
further questions.
    [The prepared statement of Dr. Moore follows:]

                Prepared Statement of Berrien Moore III

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me here to testify today. My name is 
Berrien Moore, and I am a Professor of systems research at the 
University of New Hampshire and Director of the Institute for the Study 
of Earth, Oceans, and Space. I appear today, like Dr. Anthes, in my 
capacity as Co-Chair of the National Research Council (NRC)'s Committee 
on Earth Science and Applications from Space.
    As you know, the NRC is the unit of the National Academies that is 
responsible for organizing independent advisory studies for the Federal 
Government on science and technology. The NRC has been conducting 
decadal strategy surveys in astronomy for four decades, but this is the 
first decadal survey in Earth science and applications from space.
    On March 2, 2006, I testified before this committee at a hearing 
entitled, NASA's Science Mission Directorate: Impacts of the Fiscal 
Year 2007 Budget Proposal. At that hearing, I showed the table below, 
which is taken from the 2005 Interim Report of our study. This table 
shows the effects of the FY '06 budget.\1\ I then discussed my concerns 
about the proposed cuts in the FY '07 budget, especially the continuing 
reductions in funding for Research and Analysis, which I believed was 
having a very negative effect on a program already pared to the bone.
---------------------------------------------------------------------------
    \1\ Note that the Glory mission was subsequently restored. The 
latest plan for LDCM is to implement the mission as a free-flyer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since my appearance, there have been further cancellations and 
delays of NASA missions and dramatic and deleterious changes in plans 
for the next generation of NOAA meteorological satellites, especially 
regarding their capability to support the needs for prediction, 
assessment, and mitigation of the effects of climate change.
    With this as background, I will now turn to the questions posed to 
me in advance of this hearing.

1.  How did the Decadal Survey committee determine the priorities that 
it recommended the Nation pursue in Earth and climate science research 
and applications?

    As noted in testimony of my co-chair, Dr. Richard Anthes, the 
Decadal Survey's vision, which was first expressed in the committee's 
2005 Interim Report,\2\ is for a program of Earth science research and 
applications in support of society. The present report reaffirms this 
vision, the fulfillment of which requires a national commitment to a 
program of Earth observations from space in which practical benefits to 
humankind play an equal role with the quest to acquire new knowledge 
about the Earth.
---------------------------------------------------------------------------
    \2\ National Research Council, Earth Science and Applications from 
Space: Urgent Needs and Opportunities to Serve the Nation, The National 
Academies Press, Washington, D.C., 2005.
---------------------------------------------------------------------------
    The Interim Report described how satellite observations have been 
critical to scientific efforts to understand the Earth as a system of 
connected components, including the land, oceans, atmosphere, 
biosphere, and solid-Earth. It also gave examples of how these 
observations have served the Nation, helping to save lives and protect 
property, strengthening national security, and contributing to the 
growth of our economy\3\ through provision of timely environmental 
information. However, the Interim Report also identified a substantial 
risk to the continued availability of these observations, warning that 
the Nation's system of environmental satellites was ``at risk of 
collapse.'' As noted above, in the short period since the publication 
of the Interim Report, budgetary constraints and programmatic 
difficulties at NASA and NOAA have greatly exacerbated this concern. At 
a time of unprecedented need, the Nation's Earth observation satellite 
programs, once the envy of the world, are in disarray.
---------------------------------------------------------------------------
    \3\ It has been estimated that one third of the $10 trillion U.S. 
economy is weather-sensitive or environment-sensitive (NRC, Satellite 
Observations of the Earth's Environment: Accelerating the Transition of 
Research to Operations, The National Academies Press, Washington, D.C., 
2003).
---------------------------------------------------------------------------
    The decadal survey was led by an Executive Committee that drew on 
the work of seven thematically-organized study panels:\4\
---------------------------------------------------------------------------
    \4\ The Panel Chairs were members of the Executive committee.

---------------------------------------------------------------------------
        1.  Earth science applications and societal needs.

        2.  Land-use change, ecosystem dynamics, and biodiversity.

        3.  Weather (including space weather\5\ and chemical weather\6\ 
        ).
---------------------------------------------------------------------------
    \5\ The term space weather refers to conditions on the Sun and in 
the solar wind, magnetosphere, ionosphere, and thermosphere that can 
influence the performance and reliability of space-borne and ground-
based technological systems and that can affect human life and health.
    \6\ There is no single definition of chemical weather, but the term 
refers to the state of the atmosphere as described by its chemical 
composition, particularly important variable trace constituents such as 
ozone, oxides of nitrogen, and carbon monoxide. Chemical weather has a 
direct impact in a number of areas of interest for this study, 
especially air quality and human health.

---------------------------------------------------------------------------
        4.  Climate variability and change.

        5.  Water resources and the global hydrologic cycle.

        6.  Human health and security.

        7.  Solid-Earth hazards, resources, and dynamics.

    As described in Chapter 2 of our final report, each of the panels 
used a common template in establishing priority lists of proposed 
missions (see Table 1 below). The potential to deliver tangible 
benefits to society was an overriding consideration for panel 
deliberations.
    Because execution of even a small portion of the missions on the 
panels' short lists was not considered affordable, panels worked with 
each other and with members of the Executive Committee to pare the 
number of missions; they also developed synergistic mission ``rollups'' 
that would maximize science and application returns across the panels 
while keeping within a more affordable budget. Frequently, the 
recommended missions represented a compromise in an instrument or 
spacecraft characteristic (including orbit) between what two or more 
panels would have recommended individually without a budget constraint.
    All the recommendations offered by the panels would merit support--
indeed, the panels' short lists of recommendations were distilled from 
the over 100 responses that we received in response to a request for 
mission concepts, as well as other submissions--but the Executive 
Committee took as its charge the provision of a strategy for a strong, 
balanced national program in Earth science for the next decade that 
could be carried out with what are thought to be realistic resources. 
Difficult choices were inevitable, but the recommendations presented in 
this report reflect the committee's best judgment, informed by the work 
of the panels and discussions with the scientific community, about 
which programs are most important for developing and sustaining the 
Earth science enterprise.
    The recommended NASA program can be accomplished by restoring the 
Earth science budget in real terms to the levels of the late 1990s.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


2.  What are the practical benefits of the research and applications 
activities that your Decadal Survey recommended?

    Our report presents a vision for the Earth science program; an 
analysis of the existing Earth observing system and recommendations to 
help restore its capabilities; an assessment of and recommendations for 
new observations and missions needed for the next decade; an 
examination of and recommendations concerning effective application of 
those observations; and an analysis of how best to sustain that 
observation and applications system. A critical element of the study's 
vision is its emphasis on the need to place the benefits to society 
that can be provided by an effective Earth observation system on a par 
with scientific advancement.
    The integrated suite of space missions and supporting and 
complementary activities that are described in our report will support 
the development of numerous applications of high importance to society. 
Expected benefits of the fully-implemented program include:

        <bullet>  Human Health
           More reliable forecasts of infectious and vector-borne 
        disease outbreaks for disease control and response.

        <bullet>  Earthquake Early Warning
           Identification of active faults and prediction of the 
        likelihood of earthquakes to enable effective investment in 
        structural improvements, inform land-use decisions, and provide 
        early warning of impending earthquakes.

        <bullet>  Weather Prediction
           Longer-term, more reliable weather forecasts.

        <bullet>  Sea Level Rise
           Climate predictions based on better understanding of ocean 
        temperature and ice sheet volume changes and feedback to enable 
        effective coastal community planning.

        <bullet>  Climate Prediction
           Robust estimates of primary climate forcings for improved 
        climate forecasts, including local predictions of the effects 
        of climate change; determination in time and space of sources 
        and sinks of carbon dioxide.

        <bullet>  Freshwater Availability
           More accurate and longer-term precipitation and drought 
        forecasts to improve water resource management.

        <bullet>  Ecosystem Services
           More reliable land-use, agricultural, and ocean productivity 
        forecasts to improve planting and harvesting schedules and 
        fisheries management.

        <bullet>  Air Quality
           More reliable air quality forecasts to enable effective 
        urban pollution management.

        <bullet>  Extreme Storm Warnings
           Longer-term, more reliable storm track forecasts and 
        intensification predictions to enable effective evacuation 
        planning.

3.  How consistent is the President's FY 2008 budget request for NASA 
and NOAA with the recommendations of the Decadal Survey Committee?

    It is important to note we were, of course, not privy to the 
details of the President's fiscal year 2008 budget, which was developed 
prior to the release of our final report. The NRC report is a forward-
looking document and therefore focuses primarily on the new missions; 
whereas, the Interim Report dealt with the difficulties and challenges 
of the Earth observing programs at NASA and NOAA, as they existed in 
early 2005.
    Let me address first the President's FY '08 budget request for NASA 
Earth science. It is a mixture of some good news and bad news. The 
primary good news is the small bottom line increases for 2008 and 2009. 
These increases address the needs of currently planned missions already 
in development, the completion of which is consistent with the decadal 
survey's baseline set of assumptions.
    Unfortunately, the out-year budgets reveal fundamental flaws in the 
budget and NASA's Earth science plans--the budgets are totally 
inadequate to accomplish the decadal survey's recommendations.
    In 2010, the Earth science budget begins to decline again and 
reaches a 20-year low, in real terms, in 2012. This decline reflects 
that the 2008 budget contains no provision for new missions, nor does 
it allow us to address the significant challenges facing our planet. 
The 2008 budget also ignores our repeatedly stated concern about 
declines in the Research and Analysis portion of the Earth science 
budget. The Interim Report raised this concern about the FY 2006 budget 
and the importance of a robust Research and Analysis program is 
reaffirmed in the final report, but regrettably, the FY 08 budget for 
R&A is 13 percent below the FY '06 budget in real terms. These 
disturbing broad trends are captured in Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Before turning to NOAA, I want to emphasize that the problems in 
the out-years appear to be due entirely to the lack of adequate 
resources. In fact, at a NASA townhall meeting that followed the 
release of our report on January 15, 2007 at the 2007 annual meeting of 
the American Meteorological Society, the head of NASA's Earth Science 
program stated that the recommendations in our report provided the 
roadmap for the Earth Science program we should have.
    The NOAA NESDIS budget picture is also a mixture of some good and 
bad news. In this case, the budget takes a small downturn in FY08, 
followed by significant growth in FY09-FY10, before turning down again 
in FY11 (Figure 2). It remains to be seen whether this $200 M/year 
growth in FY09 and FY10 can enable restoration of some of the lost 
capabilities to NPOESS and GOES-R. There appears to be no budgetary 
wedge for new starts. Finally, for a variety of reasons, the NOAA 
NESDIS budget is far from transparent, especially in the out-years, and 
the level of detail that is readily available makes it difficult to 
respond adequately to Committee's question.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


4.  What will be the impact if present trends in Earth and climate 
science research and applications investments continue?

    As detailed in our report and as summarized by my co-chair, between 
2006 and the end of the decade, the number of operating U.S. missions 
will decrease dramatically and the number of operating sensors and 
instruments on NASA spacecraft, most of which are well past their 
nominal lifetimes, may decrease by some 35 percent. If present trends 
continue, reductions of some 50 percent reduction are possible by 2015.
    Were this to pass, we would have chosen, in effect, to partially 
blind ourselves at a time of increasing need to monitor, predict, and 
develop responses to numerous global environmental challenges. Vital 
climate records, such as the measurement of solar irradiance and the 
Earth's response, will be placed in jeopardy or lost. Measurements of 
aerosols, ozone profiles, sea surface height, sources and sinks of 
important greenhouse gases, patterns of air and coastal pollution, and 
even winds in the atmosphere are among the numerous critical 
measurements that are at risk or simply will not occur if we follow the 
path of the President 2008 budget and the proposed out-year run out.
    Taking this path, we will also forgo the economic benefits that 
would have come, for example, from better management of energy and 
water, and improved weather predictions.\7\ Again, as my co-chair notes 
in his comments and testimony, without action on the report's 
recommendations, a decades-long improvements in the skill in which we 
make weather forecasts will stall, or even reverse; this may be 
accompanied by diminished capacity to forecast severe weather events 
and manage disaster response and relief efforts. The Nation's 
capabilities to forecast space weather will also be at risk, with 
impacts on commercial aviation and space technology.\8\
---------------------------------------------------------------------------
    \7\ In a typical hurricane season, NOAA's forecasts, warnings, and 
the associated emergency responses result in a $3 billion savings. Two-
thirds of this savings, $2 billion, is attributed to the reduction in 
hurricane-related deaths, and one-third of this savings, $1 billion, is 
attributed to a reduction in property-related damage because of 
preparedness actions. Advances in satellite information, data 
assimilation techniques, and more powerful computers to run more 
sophisticated numerical models, have lead to more accurate weather 
forecasts and warnings. Today, NOAA's five-day hurricane forecasts, 
which utilize satellite data, are as accurate as its three-day 
forecasts were 10 years ago. The additional advanced notice has a 
significant positive effect on many sectors of our economy. See 
statement and references therein of Edward Morris, Director, Office of 
Space Commercialization, NOAA, Hearing on Space and U.S. National 
Power, Committee on Armed Services Subcommittee on Strategic Forces, 
U.S. House of Representatives, June 21, 2006. Available at: http://
www.legislative.noaa.gov/Testimony/morris062106.pdf
    \8\ Ibid.
---------------------------------------------------------------------------
    The world is facing significant environmental challenges: shortages 
of clean and accessible freshwater, degradation of terrestrial and 
aquatic ecosystems, increases in soil erosion, changes in the chemistry 
of the atmosphere, declines in fisheries, and the likelihood of 
significant changes in climate. These changes are occurring over and 
above the stresses imposed by the natural variability of a dynamic 
planet, as well as the effects of past and existing patterns of 
conflict, poverty, disease, and malnutrition. Further, these changes 
interact with each other and with natural variability in complex ways 
that cascade through the environment across local, regional, and global 
scales. In summary, absent a reversal of the present trends for Earth 
observation capabilities, we see the following:

        <bullet>  Weather forecasts: After decades of steady 
        improvement, weather forecasts, including those of severe 
        weather such as hurricanes, may become less accurate, putting 
        more people at risk and diminishing the proven economic value 
        of accurate forecasts.

        <bullet>  Earthquakes, tsunamis, landslides, and volcanic 
        eruptions: We risk missing early detection of these and other 
        hazards. We also lose our ability to assess damage and mitigate 
        the loss of further human life once they have occurred. 
        Satellite monitoring of volcanic plumes, for example, has a 
        very real impact on air traffic control.

        <bullet>  Water resources: We lose many of the needed 
        observations to monitor the health of our water storage 
        reservoirs, and predict droughts with sufficient time to 
        mitigate their impact.

        <bullet>  Oceans: Sea level is rising and ice around the world 
        is melting, yet there is uncertainty in how fast these are 
        occurring and whether or not they are accelerating or 
        decelerating. We will become less able address these issues, 
        and assess their implications for our coastal communities.

        <bullet>  Climate: We are losing critical observations of the 
        Earth system, the atmosphere, oceans, land, and ice needed to 
        verify and improve the climate models. These models will be 
        increasingly important to the U.S. economy because they best 
        capture the likely patterns of future climate change and 
        variability.

        <bullet>  Ecosystems: We lose the ability to assess the health 
        of our forests, wetlands, coastal regions, fisheries, and 
        farmlands and to determine the impact and effectiveness of 
        regulations designed to protect our food supply.

        <bullet>  Health: Land-use, land cover, oceans, weather, 
        climate, and atmospheric information observations, now used by 
        public health officials to determine the effects of infectious 
        diseases, skin cancers, chronic and acute illnesses resulting 
        from contamination of air, food, and water are all at risk. As 
        an example, air quality forecasts, which use the global 
        perspective of satellites to identify pollution transport 
        across borders, will become less accurate, with negative 
        implications for both human health and urban pollution 
        management efforts.

    I would like to thank the Committee for inviting me to testify, and 
I would be delighted to answer any further questions.

    Chairman Gordon. Governor.

 STATEMENT OF HONORABLE JAMES GERINGER, DIRECTOR OF POLICY AND 
    PUBLIC SECTOR STRATEGY, ENVIRONMENTAL SYSTEMS RESEARCH 
                        INSTITUTE (ESRI)

    Mr. Geringer. Thank you, Mr. Chairman, Members of the 
Committee, Ranking Member Hall. I appreciate the opportunity to 
be with you today.
    I am Jim Geringer. As you have introduced me, I am with the 
Environmental Systems Research Institute, a leader in 
geospatial information systems. I served as Governor of 
Wyoming. I also represent the Alliance for Earth Observations, 
which is a group of people who are interested in an observation 
system of a totally integrated type that includes academia, 
non-profits, non-governmental, as well as industrial members.
    My past includes time as an ag-producer, a farmer. I have 
used Earth observation information for several years and also 
worked on the unmanned space program, launching, among other 
things, a Global Positioning Satellite system that we knew as 
NABSTAR, at the time.
    I deeply appreciate what Dr. Moore and Dr. Anthes have put 
together through their committee. I serve on the Mapping 
Science Committee also under the National Research Council. I 
am not associated with their activity, but I very well 
understand the quality and breadth of reports that just--don't 
just happen. It takes a lot of effort.
    My role here, I believe, is to speak from the practical 
point of view, those who have to do something with the 
information. For all of the college degrees that there might 
be, the Bachelors, the Masters, and the Ph.D.s, I think mine is 
more relevant as the BT, the ``been there'' degree.
    As a former governor and ag-producer, my staff used to say, 
``It doesn't take a rocket scientist to be governor, but it 
helps.''
    One example I would give is what Congressman Hall already 
brought up, the National Integrated Drought Information System. 
My part of the Rocky Mountain west is still suffering from a 
significant drought. I know that we would certainly like to 
balance out what New York is getting right now.
    Drought can last long and extend across larger areas than 
hurricanes, tornadoes, floods, earthquakes, and it causes 
hundreds of millions of dollars in losses, and it certainly 
dashes our hopes and dreams. And when the 19 western governors 
got together and said, ``We would like to support the use of 
satellite and other observation information to lessen droughts' 
impact on our region,'' we requested the NIDIS system, as it is 
called, because rather than spending billions of dollars, 
federal dollars, in particular, on drought assistance after the 
fact, we would rather spend more on avoidance before the fact.
    The strongest case for NIDIS and then extending on through 
the broader Earth observation activities is to enable risk 
management by individuals to make better judgment and policy 
decisions by business, by government, and shifting from our 
practice of reaction and restitution to one of prediction and 
mitigation.
    The Decadal Survey goes far beyond just climate change. It 
highlights many other Earth science areas of practical benefit. 
Looking at what is happening with increased populations located 
in high-risk zones, such as earthquake faults or near sea 
coasts, the shortage of clean and accessible freshwater, the 
shortage of water, as a commodity, will be the dominate issue 
from here forward, human health and security, degradation of 
both terrestrial and aquatic ecosystems, soil erosion, invasive 
species, and certainly our opportunity to do disaster--better 
disaster management. So all of those are even beyond the 
climate change issues that have already been raised.
    There is also a concern that I would bring to you that the 
lack of access to and the relevance of remotely-sensed data 
frustrates a lot of users. We need to devote more time asking 
the users what they need and help them find it. Many times it 
is available. They just don't know it is there. We need a 
streamlined process for accessing remotely-sensed data by the 
public, policy-makers, educational communities, as well as 
industry.
    In terms of three broad areas of recommendation I would 
bring to you, based on the Decadal Survey. Number one, enable 
the best possible personal and policy decisions, the best 
information for all kinds of people, providing our citizens 
with information, technology, and tools to monitor and respond 
in their own way to our changing world, protecting their lives, 
livelihood, and property. Number two, provide an Integrated 
Earth Observation System, otherwise known as IEOS, to assure 
U.S. competitiveness. Our American competitiveness is slipping 
without the projects and the missions described by the two co-
chairmen here. And number three, designate clear leadership 
responsibilities to resolve the issues and attain the goals 
identified in the Decadal study.
    Our United States private sector capabilities lead all 
other nations today. With activities such as GoogleEarth, 
Microsoft, Yahoo, and our own product at ESRI, providing online 
mapping sites using remotely-sensed imagery that the public now 
takes for granted. Other private sector companies, such as 
GeoEye and DigitalGlobe, well known in Colorado, provide high-
resolution imagery for tourism, real estate, insurance 
companies to use. It has enabled corrections to legal 
descriptions, settled land ownership disputes, Light Detection 
and Ranging, or LiDAR, sensors are used to map terrain and to 
define flood plain mapping and allow state and local 
governments to aid in their own development decisions.
    There are so many sources that are brought to bear in 
addition to satellite imagery to mitigate and respond to 
catastrophic events.
    And I was also asked to specifically address how Earth 
observations are used in the agricultural sector. But first, 
let me address how they are not.
    Current Earth observations are highly fragmented, with 
different systems that were set at different times by different 
organizations and by different Congresses for different 
reasons, and few, if any, of them are cross-correlated, 
especially within the federal space. NOAA has their weather 
observations. The FAA has surface observations. The USGS has 
stream gauging, and the Department of Agriculture, through the 
NRCS, employs snow pack telemetry. We do not have a coherent, 
integrated system to deliver each of the products so that we 
can tell their relationships and their interrelationships.
    Satellite remote sensing, indeed, though, is broadly used 
in sustainable agriculture: forestry; responsible natural 
resource stewardship both in the public and the private domain; 
monitoring foreign and domestic yearly yields on harvests of 
food and fiber to predict where the balances and the imbalances 
might occur; measuring soil erosion from wind and water; 
evaluating the impact of climate change; detecting the presence 
of invasive species, plants, animals, insects, and diseases 
that affect a wide range of agriculture; detecting and 
measuring contamination of soil, water, and air resources; 
looking at landscape health; measuring resources involved with 
the development of biofuels, and certainly with the shift from 
food production to biofuels being able to monitor that.
    So remotely-sensed observations support the entire 
agriculture value stream from monitoring and detecting change, 
identifying solutions, taking action, and then finding out, in 
return, what the result of those actions were.
    There are many uses of agriculture in--such as 
hyperspectral imagery by individual farmers and ranchers all 
the way up to what you are doing on this committee, Mr. 
Chairman and Members of the Committee. Whatever the user is, 
they want objective, timely, and accurate information. And 
timeliness is, by far, the most important, because the value of 
information is the highest when uncertainty is the highest, and 
it is certainly--uncertainty is certainly common in 
agriculture.
    One of the statements in the report says that satellites--
and I quote, ``Satellite observations have spatial and temporal 
resolution limitations and hence, alone, do not provide a 
picture of Earth's system that is sufficient for understanding 
all of the key physical, chemical, and biological processes.'' 
What we need is a system of space, ground, airborne, and ocean-
based sensors, both public and private, that can gather 
complementary information and can be integrated with a minimum 
of duplication. In addition, we need a national network of web-
based information integration of how our collective efforts, 
and I had proposed in the appendix attached to my written 
remarks how we could integrate that through a geospatial-
enabled information system.
    So to sum up, we can build on the Decadal Study results by 
ensuring that the United States has long-term Earth-observation 
capability and that it is maintained, certainly whatever we 
heard this morning is we are not even maintaining; addressing 
the void in leadership and how the vision can pull it all 
together; addressing a single point of contact or program 
office within the Office of Science and Technology Policy; 
improving our research to operations efforts across all 
agencies; establishing a common, integrated information 
infrastructure readily available through web portals to the 
public and policy-makers alike; implement the U.S. Integrated 
Earth Observation System, IEOS, which is part of the Global 
Earth Observation System of Systems, or GEOSS; and then begin a 
dialogue with the private sector, industry, academia, and non-
governmental organizations to assure that all observation 
assets respond to the needs of all of our various sectors, as 
well as to consider new technology solutions. A high-level 
commission that includes the private sector, non-governmental, 
and governmental representatives, particularly state and local, 
could further examine and develop an integrated plan for Earth 
observations.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Geringer follows:]

                  Prepared Statement of James Geringer

    Chairman Gordon, Ranking Member Hall, Members of the Committee, 
special guests, ladies and gentlemen. I am Jim Geringer, currently 
Director of Policy and Public Sector Strategy for Environmental Systems 
Research Institute (ESRI), the industry leader for geospatial 
information systems. I served as Governor of Wyoming from 1995 to 2003. 
I am also a representative of the Alliance for Earth Observations, a 
nonprofit initiative to unite the private sector in the mission to 
promote the understanding and use of Earth observations for societal 
and economic benefit. My past includes time spent as an agricultural 
producer and user of Earth observation information and several years 
with the unmanned space program configuring remote sensing satellites. 
I will relate some of my perspective from each of these roles.
    We each benefit from Earth science, remote sensing and location-
based information every day. Through TV, newspapers, PDAs and online 
information, we check the weather, the latest headlines and map out 
where to meet someone for dinner. On a broader scale, we can track 
indicators of change across our planet. The National Oceanic and 
Atmospheric Administration (NOAA) reported that last year was the 
warmest on record for the United States. My part of the Rocky Mountain 
West continues to suffer extreme drought. Last week's report from the 
Intergovernmental Panel on Climate Change (IPCC) confirms what we 
already knew anecdotally--that human activity is adversely affecting 
our climate.
    Today's discussion centers on Earth science and applications from 
space and the requisite analytical tools that are necessary to make use 
of the data. As a former governor, agricultural producer and now 
involved with geospatial technology, I support the programs dealing 
with Earth science, applications, and observational technologies for 
public use, business decisions, and everyday personal choices.
    I thank Drs. Berrien Moore and Rick Anthes for their leadership as 
Co-Chairs of the National Research Council (NRC) study, Earth Science 
and Applications from Space: National Imperatives for the Next Decade 
and Beyond, which is the focus of this hearing. I congratulate them and 
the other members of the Committee for an exceptional report. I serve 
on a related committee under the NRC, the Mapping Science Committee, so 
I know that the quality and breadth of reports such as this don't just 
happen; they require a very dedicated and concerted effort.

Response to the Report

    Quoting from the report, ``the United States' extraordinary 
foundation of global observations is at great risk. Between 2006 and 
the end of the decade, the number of operating missions will decrease 
dramatically and the number of operating sensors and instruments on 
NASA spacecraft, most of which are well past their lifetimes, will 
decrease by 50 percent.'' A fifty percent reduction in today's space-
based information systems is in sharp contrast to ever increasing 
demand.
    Quoting further, the Committee was ``challenged by the rapidly 
changing budgetary environment of NASA and NOAA environmental-satellite 
programs. By definition, decadal surveys are forward-looking documents 
that build on a stable foundation of existing and approved programs. In 
the present survey, the foundation eroded rapidly over the course of 
the study.'' It is difficult maintain your vision from a crumbling 
vantage point.
    I offer three recommendations to the Committee for your 
consideration and deliberation:

        <bullet>  Enable the best possible personal and policy 
        decisions by providing our citizens with information, 
        technology and tools to monitor and respond to our changing 
        world, thereby protecting lives and property;

        <bullet>  Provide an integrated Earth observation system to 
        assure U.S. competitiveness;

        <bullet>  Designate clear leadership responsibilities to 
        resolve the issues and attain the goals identified in the 
        Decadal Study.

Enable the Best Decisions
    The American people need and deserve the most comprehensive and 
timely information possible about our world. The value of objective, 
timely, and accurate information has never been higher. We all would 
like to have predictable certainty and security, in our lives. The 
value of information is high when uncertainty is high. Today nearly 
every issue we face has increasing uncertainty which drives the 
necessity for better information. We devote funding and resources to 
modern medicine to keep our bodies healthy using the best information; 
likewise, we should have quality information about our nation's food 
supply, water supply, energy, climate change and national security or 
face more and more uncertainty. In today's world of RSS feeds, 24-hour 
news channels and e-mails that propagate rumor far faster than truth, 
information that is dangerously incomplete is being used to influence 
decision-makers. Today's media and Internet capabilities can and should 
provide more and better information. Remote sensing with the right 
analytical technology can provide an objective and accurate assessment 
of the situation before decisions are made with information that has 
not yet been validated.
    We should develop a culture among agencies and levels of government 
to share data, applications and predictions, then serve the results to 
the public so that we individually and collectively are more self-
reliant, less vulnerable and can assure long-term sustainability for 
our world.
    A policy-maker in Washington, a water resource manager in the West, 
a farmer in Indiana each must have good information upon which to base 
decisions. We must have access to the most accurate and comprehensive 
science information to develop a policy of sustainability for ourselves 
and for future generations.

Earth Observations Are Vital to American Competitiveness
    Integrated Earth observation capabilities are vital to American 
competitiveness. The Decadal Survey helps us realize that the U.S. 
Earth observation capability is not keeping up with expectations and 
our competitiveness is at risk. We must have the global information 
infrastructure that is critical to our interconnected society. 
Comprehensive science information ensures that decisions will be made 
based on evidence rather than anecdotes. Long-term, sustained data is 
needed to identify trends. Without U.S. long-term climate data, the 
IPCC assessment would not have been possible.
    Small satellites such as the Disaster Monitoring Constellation 
(DMC) from the United Kingdom, Algeria, China, Nigeria and Turkey, 
provide information for disaster prediction and mitigation. But one of 
the most effective applications has been the monitoring of opium 
production in Afghanistan. A constellation of low-cost satellites 
showed that the area under opium cultivation grew to a record 165,000 
hectares in 2006 compared to 104,000 hectares in 2005. The U.S. is not 
alone in innovative approaches.
    On June 21, 2004, the Western Governors unanimously adopted a 
report entitled, Creating a Drought Early Warning System for the 21st 
Century: The National Integrated Drought Information System. I 
encourage the Members to download a copy from http://www.westgov.org/
wga/publicat/nidis.pdf. I was pleased to provide testimony on their 
behalf before the Senate Committee on Commerce, Science & 
Transportation, Subcommittee on Disaster Prevention & Prediction last 
April that helped with the passage of H.R. 5136 authorizing NIDIS. Last 
week the President proposed $4.4 million in the FY 2008 budget to fund 
it.
    The strongest case for NIDIS is to enable risk management by 
individuals, businesses and governments, dramatically shifting from our 
practice of reaction and response to one of prediction and mitigation. 
Our competitive capability will increase with better risk management. 
We cannot do this without accurate and regular satellite observations. 
With better sensors, data, applications, tools and ever-improving 
technology we should reward risk management over resignation to the 
elements.
    Of all the commodities sought in our marketplaces today, none will 
affect our competitiveness in the future more than water. Not oil or 
gold or pork bellies, but water. Our municipalities must have timely 
information that enables water policies that minimize or eliminate 
water shortages, farmers to plant alternative crops, ranchers to locate 
alternatives for grazing, river barges to anticipate low flows in 
navigable waterways, and health agencies to control disease.
    Space sensors and satellite observations improve our understanding 
and response to climate change to sustain international 
competitiveness. In today's global economy, innovation is the key to 
competitiveness. The United States must stay at the forefront of Earth 
observation and geospatial technologies to better forecast and mitigate 
the impact of climate change, natural disasters and not only lead the 
competition but leave a more sustainable world for our children. The 
motivations and aspirations of the next-generation workforce are being 
shaped today. We should be setting a long-range vision in place to 
encourage today's youth to pursue science, math, technology and 
engineering professions to assure future innovation and 
competitiveness.
    Our commitment today to technology and greater knowledge of the 
Earth would allow us to better protect life and property and create 
unprecedented opportunities to promote economic vitality. The right 
instruments and information systems enable our ability to make 
forecasts that help anticipate outbreaks of infectious disease, ensure 
adequate water availability and quality, or increase agricultural 
productivity.
    The recommendations by the NRC report would enable a global view of 
issues and activities. But a global view alone is not sufficient to 
make policy or decisions. We need researchers, geospatial modeling and 
analysis that integrate pertinent sources of data. We should promote 
the use of established standards and protocols to assimilate data from 
multiple sensors and sources--including commercial providers, State and 
local governments, academia and international partners--and provide the 
data through user-friendly web portals.
    The U.S. private sector capabilities lead other nations. Google, 
Microsoft, Yahoo and MapQuest provide online mapping sites with 
remotely sensed imagery that we take for granted. In the private 
sector, companies such as GeoEye and DigitalGlobe provide high-
resolution satellite imagery. Tourism, real estate and insurance 
companies routinely use remote sensing information available online. 
High-resolution imagery has enabled corrections to legal descriptions 
and settled ownership disputes of land parcels. Light Detection and 
Ranging, or LiDAR sensors are used extensively to map terrain and 
elevation allowing state and local governments to aid in planning and 
development decisions.
    Dr. Glenn Hill of Texas Tech University used 3-D imaging to catalog 
and preserve the archaeological heritage in Mesa Verde National Park. 
If space-based technology were developed to produce images of the 
quality created by Hill's team, high-definition 3-D images of entire 
national parks would enhance our ability to manage our national parks. 
These and many other examples point out how public expectations 
continue to increase for good science and timely assessment.
    I affirm the comment in the NRC report that ``Satellite 
observations have spatial and temporal resolution limitations and hence 
do not alone provide a picture of the Earth system that is sufficient 
for understanding all of the key physical, chemical, and biological 
processes.'' We need a system of space, ground, airborne and ocean-
based sensors, both public and private, that can gather complementary 
information and can be integrated with a minimum of duplication. In 
addition we need a national network information integration that can be 
provided by collective efforts such as a Geographic Information System 
for the Nation described in the paper attached to my written testimony 
as Appendix A.

Clear Leadership is Essential
    Clear leadership is essential to resolve the issues and attain the 
goals identified in the Decadal Study. The report before you calls for 
increased funding to improve our current national Earth monitoring 
capability. Yes, funding is important but the essential missing element 
is leadership. Scientific assessment, increased budgets, improved 
technical capabilities, and coordinated public-private engagement must 
be accompanied by designated, consolidated leadership. Critical 
elements including satellite and aircraft sensors, in situ instruments 
such as stream gauges, and geospatial information systems, have been 
fragmented among our federal agencies, always a secondary mission, 
never the priority responsibility.
    Earth observation is not a priority mission for any designated 
agency at the cabinet level. Not within NASA, the Department of 
Commerce, the Department of Interior nor any other federal agency. The 
important technologies that enable us to measure climate change and 
identify and monitor the impacts to our environment, our lives and our 
livelihood are the sole responsibility of no one agency or person. Our 
federal policy and programs are fragmented, even duplicative, and fall 
short of national goals. Our Earth observation systems that might help 
mitigate such things as drought or major disasters are neither 
efficient nor integrated. Consequently our current laws and practices 
foster dependency rather than enabling risk management, creating 
expectations that the Federal Government will bail us out of any and 
all misfortunes.
    Who should be the lead agency or position for U.S. Earth 
observation capabilities? What is our national vision for Earth 
observations? How are requirements from the federal operational sector 
such as NOAA, USGS, USDA and EPA reflected in our research and 
development programs within NASA and NSF? Are requirements from the 
private sector being addressed?
    Leadership is essential to:

        <bullet>  Protect these critical assets;

        <bullet>  Develop a national Earth observation strategy to 
        appropriately addresses climate change and other environmental 
        challenges based on evidence over anecdote;

        <bullet>  Assure economy and efficiency in agency plans and 
        budgets;

        <bullet>  Allow a smooth transition from research to 
        operations;

        <bullet>  Improve U.S. land-observing capabilities to an equal 
        priority with atmospheric and ocean observations;

        <bullet>  Improve capability and cooperation among government, 
        private sector, academia, and non-governmental organizations;

        <bullet>  Assure the much needed integration of our national 
        and international Earth observation systems;

        <bullet>  Develop the products needed to make the best 
        decisions for our country and future generations.

    I support the report recommendation that:

         The Office of Science and Technology Policy, in collaboration 
        with the relevant agencies, and in consultation with the 
        scientific community, should develop and implement a plan for 
        achieving and sustaining global Earth observations. Then a 
        single point of contact or program office at the Cabinet level 
        should be established to assure complementary rather than 
        duplicative or fragmented effort for all operational aspects of 
        Earth observation and analysis.

    I urge that the private sector--industry, academia, and non-
governmental organizations--be consulted regarding an integrated plan 
for Earth observations through a high-level Commission (e.g., 
Congressional or White House). Good ideas and best practices abound 
outside of government.
    The U.S. Integrated Earth Observation System (IEOS) would also 
advance our national capabilities. IEOS would be the U.S. component of 
the Global Earth Observation System of Systems (GEOSS), which is now 
supported by more than 66 countries and 46 international organizations. 
This U.S.-initiated effort is intended to allow federal interagency and 
multi-national coordination to assure that disparate environmental-
related data systems here at home and abroad are inter-operable and 
compatible. A strong IEOS effort should be characterized by clear 
designation of responsibilities, enabled by a web-based system of rapid 
communication, and funded across agency boundaries with a clear 
purpose. IEOS/GEOSS would improve the capabilities for today's 
decision-makers by providing new information products. That is not the 
case today. IEOS has neither been funded nor has program leadership 
been designated.
    We take for granted our capability to use credit or ATM cards 
almost anywhere in the world. The financial and banking systems 
throughout the world are inter-operable--they exchange, transfer, 
translate, and deliver data that is used in decision support tools. If 
insufficient funds exist, both the bank and the account holder know. 
Decision support tools used by banks flag and even stop transactions. 
We should do the same with today's Earth observations systems. 
Unfortunately, they are not integrated. Our current systems do not 
allow users to easily access, integrate or deliver data, nor do they 
include adequate decision support tools. We need a common integrated 
information architecture that IEOS/GEOSS would require.
    Space-based assets made possible the discovery of the Antarctic 
ozone hole, enabled forecasting more than 40 hours beforehand as to 
where and when Hurricane Katrina was likely to make landfall, and now 
help us to understand the evidence and impacts of climate change. These 
same technologies are used by farmers, energy executives, and coastal 
managers for their daily operational decisions.

Satellite Measurements for Agriculture and Other Areas

    Mr. Chairman, I have generally covered all of the questions in your 
letter of invitation for me to testify. I submit these additional 
comments:

1.  Describe the capabilities and applications made possible by data 
derived from remote sensing satellites. What kinds of measurements are 
of chief interest to each of the following communities:

        <bullet>  Agriculture

        <bullet>  Natural resource managers

        <bullet>  Municipal water supply managers

        <bullet>  Tourism and recreation officials

    Each of these communities is heavily dependent on accurate weather 
and climate forecasts provided by NOAA and private sector weather 
information companies.
    Earth observations are widely used for assessments of production 
and resource conditions at a point in time. We need to move beyond the 
emphasis of a single snapshot to the incorporation of observations made 
over time, analyzed by models that can be used to predict yield or 
resources status as a consequence of future climate, management, 
biological or societal changes.
    According to our U.S. Department of Agriculture, remote sensing 
associated with sustainable agriculture, forestry, and responsible 
natural resource stewardship would include:

        <bullet>  Monitoring domestic and foreign yearly yields and 
        harvests of food, and fiber production at field, local, 
        regional and global scales.

        <bullet>  Measuring soil erosion from wind and water.

        <bullet>  Evaluating impacts of global change, especially 
        climate.

        <bullet>  Detecting the presence of, and then monitoring the 
        spread of invasive species including plants, animals, insects 
        and diseases affecting agriculture, forestry, and natural 
        resources.

        <bullet>  Detecting and measuring contamination of soil, water, 
        and air resources, including dispersion of pollutants.

        <bullet>  Detecting indicators of landscape health such as the 
        impacts of resource degradation on agri-ecosystems and natural 
        ecosystems.

        <bullet>  Measuring resources involved in the development and 
        production of biofuels.

        <bullet>  Evaluating the effect on food supplies of 
        agriculture's shift from food production to biofuels.

        <bullet>  Detecting and measuring the impact of, and the 
        progress of recovery from, episodic catastrophic events such as 
        drought, flood, hurricanes, tornadoes, volcanic eruptions, 
        earthquakes and wildfires.

        <bullet>  Detecting the effects of bioterrorism such as plant 
        diseases, water-born pathogens and monitoring progress of 
        remediation.

        <bullet>  Establish metrics for maintenance of soil quality, 
        especially organic matter, and chemistry.

        <bullet>  Detecting and measuring landscape factors indicating 
        compliance with agreements between landowners/operators and 
        federal and State agencies such as the Conservation Reserve 
        Program (CRP), easements, timber sales, rangeland management 
        and public lands.

        <bullet>  Detecting and measuring landscape factors indicating 
        compliance with international treaties and agreements.

        <bullet>  Identifying pathways that transport hazardous waste, 
        and measuring the amounts and ultimate fates of waste.

        <bullet>  Measuring the status and changes of habitat and 
        effects on plant and animal biological diversity.

        <bullet>  Understand the effect of energy development 
        activities on or near critical habitat for threatened and 
        endangered species.

        <bullet>  Measurements to identify and quantify factors 
        influencing water quantity, water quality and air quality.

        <bullet>  Measuring carbon sequestration strategies to 
        determine beneficial climate change.

        <bullet>  Measuring the long-term effects of the increasing 
        removal of ground water from underground aquifers.

        <bullet>  Calculate the near-term and long-term effects of 
        urban sprawl on agricultural production, critical habitat and 
        recreation opportunities.

    Agricultural users require direct measurements from hyperspectral 
imagery to identify ground cover or to the type and health of 
vegetation and soils, such as too much or too little water, fertilizer 
or ripeness, on a short time scale of days to weeks. Archived, these 
same parameters provide climatologists with longer-trend information, 
from seasonal to yearly variations such as El Nino, for capacity 
planning such as transportation and silo storage. The Drought Monitor 
is consulted by farmers, ranchers, and land managers especially in the 
West, and internationally by those who seek competitive advantage in 
export markets or where they may gain temporary advantage in their own 
country or region when drought would decrease our exports into their 
countries.
    Natural resource managers use direct measurement by hyperspectral 
imagery from aircraft or from space to provide signatures of water 
resource conditions such as algae and contaminants. These same 
measurements can provide forestry with tree type and conditions of 
their health. Measurement of atmospheric temperature and moisture 
provide input to atmospheric forecast models that predict future 
temperature, precipitation, and severe weather, which could place 
healthy resources at risk.
    Municipal water supply managers also use atmospheric temperature 
and moisture measurements to provide input to atmospheric forecast 
models that predict temperature and precipitation for planning in usage 
and supply.
    Tourism and recreation officials assess atmospheric temperature and 
moisture measurements to provide input to atmospheric forecast models 
that predict weather and severe hazards for travel and tourist site 
conditions.
    The World Meteorological Organization (WMO) has recognized 26 
Essential Climate Variables (ECVs) documented by the science 
community--26 measurements that are critical to the models that 
forecast weather and climate.
    NASA, the U.S. Geological Survey, the Environmental Protection 
Agency, the Department of Energy, the Department of Agriculture, the 
Department of Commerce and others are developing, deploying, and 
maintaining Earth observation data sets used in key models and decision 
support tools.

2.  How do these groups gain access to remote sensing data? Is special 
training required to understand remote sensing data, and if so, how is 
it derived? Do private companies provide value-added products for these 
groups?

    Groups access remotely sensed data several ways. The NOAA weather 
and climate forecasting services (National Weather Service, National 
Hurricane Center) provide data and information through NOAA maintained 
portals and servers that provide access to over 250 individual 
information products, including forecasts. Private sector companies 
(Accuweather, ZedX Incorporated, The Weather Channel) access and 
exploit this information for individual clients. Commercial companies 
such as Google and ESRI provide online portals, and consulting and 
software solutions used by many of the companies to visualize 
information for several of these markets and to enable modeling and 
workflow analysis.
    Raw remote sensing data by itself is not entirely useful. Training 
and education vary by the level and sophistication of the end user. 
Ordinary citizens use data provided through many types of media. 
Capabilities range from basic literacy skills up to doctoral research, 
certified professionals and technology aware managers. Special 
expertise is required to turn data into actionable information. Public 
domain and general information is provided through government agencies 
while tailored information for special and commercial users is provided 
by value-added companies.
    User communities throughout the U.S. are generally fairly 
sophisticated, benefiting from training and information provided by 
NOAA, NASA, and NSF, the Air Force, and professional societies such as 
the American Meteorological Society, the National Association of 
Broadcasters. Individual companies such as ESRI also provide 
specialized training programs. There are thousands of registered 
meteorologists and GIS professionals throughout the United States that 
are trained in the use of the observations and the Earth science models 
that use them to create trends and forecasts.
    The number and diversity of players in the satellite observation 
field is growing. New and emerging capabilities offered by GoogleEarth, 
Microsoft Virtual Earth 3-D, ESRI's Explorer and others deliver all 
types of data and information products to a wide variety of users 
particularly through Internet-based web services and data portals that 
allow many users to discover and extract information.
    As a cautionary note--we risk becoming too complacent about having 
imagery and maps right at our fingertips. Visualization is interesting 
but can be so shallow as to be misleading. Development of good policy 
alternatives and decisions depend on the quality and configuration of 
remotely sensed data. Data must be described in terms of metadata, or 
its appropriateness for use. Compatibility of diverse date sources is 
essential. The casual user of online free imagery may not realize how 
much useful spatial and spectral information can come from satellite 
sensors and used for analysis. The full value of remotely sensed data 
comes from computer programs and analytical models that extract and 
transform information from validated and verified sources.
    Academia plays a very important role in delivering information 
products and training. Our universities not only provide vital 
research, but they are also developing the next generation of 
scientists, engineers and end users.
    We don't just need more data. We need more data that becomes 
information to enable decisions. The Data was there that said that the 
nursing home in New Orleans was putting the residents at risk. But the 
data wasn't available in the right form and wasn't used to make 
decisions, a tragic outcome for those who needed it.
    You as Members of Congress are enabled through a wide variety of 
information through the Library of Congress that helps suggest a range 
of policy options that you may use in legislative deliberations.

3.  Based on your experience, how broadly are government and industry 
using remote sensing data to plan and manage crop production and other 
natural resources?

    The most positive potential for government and industry alike is to 
leverage and integrate information in a complementary way. The most 
negative potential is for agencies to be fragmented in approach, 
duplicative in some efforts and void in others.
    Both government and industry use remote sensing data to plan and 
manage many activities including crop production and natural resources. 
The U.S. Department of Agriculture, for example, benefits greatly from 
access to a robust set of observations and forecasts that are provided 
by a wide range of Earth observation systems (public and private). 
These are used by the Foreign Agriculture Service (FAS) to provide the 
monthly global crop assessment products. These products are key to 
policy and management decisions on agriculture worldwide. Business 
entities that advise the agriculture community are critically dependent 
on NOAA and other sources of near-term weather forecasts and seasonal 
to inter-annual forecasts of climate conditions that are used in 
decisions of what to plant, when to plant, and when to harvest.
    NASA's MODIS satellite has been an invaluable source of information 
to detect and fight wildfires in the West. Knowing where the active 
fire lines are helps protect the safety of our firefighters. The 
sensors help scientists monitor the extent of irrigated agriculture and 
deforestation worldwide and provide data that private analysts use to 
predict the global agricultural production including which crops will 
be in short or over supply.
    As industries become more dependent on managing on small margins or 
managing against disaster risk, information from remote sensing will 
become even more important. Weather risk managers seek to identify the 
economic consequences of adverse weather on enterprises and 
organizations by relating their revenues, margins and costs to critical 
weather variables. A professional market exists that makes its business 
in assuming this weather risk. In exchange for a premium or other 
benefits, these businesses take on this risk based on indices of 
pertinent weather variables, such as average temperature or rainfall.
    A couple of years ago, the Metropolitan Area Planning Agency 
representing sixty-four member organizations from five counties in 
Nebraska and Iowa contracted to provide aerial data acquisition, 
digital orthophotography, and production services for over 2,200 square 
miles in Nebraska and Iowa. It was a multi-sensor program involving a 
large consortium of government user communities. It included a 
combination of Lidar mapping, floodplain mapping, data for master 
planning, design and construction projects, floodplain analyses, web 
services, highway and road design, 3D visualizations, GIS municipal 
requirements, and various engineering and public works functions.
    There is similar interest in managing the economic impact of 
extreme events--earthquakes, hurricanes, monsoon and typhoons--by 
utilizing indices based on windstorms, seismic magnitude and seismic 
intensity in ways that are very similar to the way the weather risk 
market uses weather data. The risk-management business has strong 
interest in serious, systematic attempts to improve, expand and 
intensify the capture of data relating to our planet. We also see 
growing interest in the risk management and insurance industries for 
understanding shorter-term weather risk in terms of climate change. In 
sum, better, fuller data mitigates data risk and model risk for the 
providers of risk capital.

Moving Forward

    As noted earlier, the American people deserve the best and most 
comprehensive information about our changing planet. Recent revelations 
about climate change, particularly as affected by human activity, 
elevate the importance of ensuring national climate observing systems. 
We must approach our environmental security with as much rigor and 
commitment as we approach homeland security.
    We should build upon the Decadal Study results by:

        <bullet>  Ensuring that the U.S. long-term climate monitoring 
        capability is maintained;

        <bullet>  Addressing the void in Earth observation leadership 
        and vision;

        <bullet>  Establishing a single point of contact or program 
        office within the Office of Science and Technology Policy;

        <bullet>  Improving our research-to-operations efforts across 
        all relevant agencies;

        <bullet>  Establishing a common integrated information 
        infrastructure;

        <bullet>  Implementing the U.S. Integrated Earth Observation 
        System (IEOS) of the Global Earth Observation System of Systems 
        (GEOSS);

        <bullet>  Immediately beginning a dialogue with the private 
        sector--industry, Academia, and non-governmental 
        organizations--to ensure our satellite observation assets 
        respond to the needs of various sectors as well as to consider 
        new technology solutions, such as the Geographic Information 
        System for the Nation described in Appendix A.

        <bullet>  Establish a high-level Commission composed of private 
        sector (industry, Academia, and non-governmental organizations) 
        representatives to further examine and develop an integrated 
        plan for Earth observations.
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                      Biography for James Geringer

        <bullet>  Native of Wheatland, Wyoming.

        <bullet>  B.S. in Mechanical Engineering from Kansas State 
        University.

        <bullet>  Veteran of 10 years active and 12 years reserve in 
        the U.S. Air Force.

        <bullet>  Worked as project officer to launch several space 
        based satellites for the unmanned space programs of the Air 
        Force and NASA, including the Global Positioning Satellite 
        System, remote-sensing early detection/warning systems, the 
        Interim Upper Stage for the Space Shuttle, the Mars Viking 
        Lander, activation of the Peacekeeper missile system and 
        disaster recovery from nuclear, biological and chemical 
        warfare.

        <bullet>  Served in the Wyoming Legislature from 1983 to 1994, 
        including six years each in the House and the Senate. Committee 
        chairmanships included Appropriations, Judiciary and Management 
        Audit.

        <bullet>  Contract administrator for the construction of a 1700 
        megawatt coal-fired electric power generation plant near 
        Wheatland Wyoming 1977-79.

        <bullet>  Went into full-time farming in 1980, continued 
        through 1994.

        <bullet>  First elected as Wyoming Governor in 1994, reelected 
        in 1998, completed second term in January 2003. Focused on 
        improving education through standards, accountability and 
        technology, modernized economic planning to extensively include 
        technology, changed how natural resource agencies among State, 
        Federal and local governments worked together, implemented 
        strategic planning tied to performance based budgeting and upon 
        leaving office, provided Wyoming state government with a budget 
        surplus, one of very few states to make that claim early in 
        2003.

        <bullet>  Emphasized community based solutions particularly for 
        health and social services and promoted the use of consensus 
        building to resolve difficult issues.

        <bullet>  Past Chair of the Western Governors' Association.

        <bullet>  Chairman of the Education Commission of the States.

        <bullet>  Served on the GeoSpatial One Stop Board of Directors, 
        National Commission on Mathematics and Science Teaching for the 
        21st Century, the National Commission on Service-Learning, the 
        National Commission on Teaching and America's Future, Chair of 
        the National Governors Association Technology Task Force and as 
        charter member and current Chair of the Board of Trustees, 
        Western Governors University.

        <bullet>  Current memberships: Mapping Sciences Committee under 
        the National Academy of Sciences National Research Council; 
        Western Interstate Energy Board; Association of Governing 
        Boards for higher education; Operation Public Education; the 
        Board of Governors of the Oquirrh Institute; and, Co-Chair of 
        the Policy Consensus Initiative.

        <bullet>  Joined Environmental Systems Research Institute 
        (ESRI) in the summer of 2003 as Director of Policy and Public 
        Sector Strategies, focused on how senior elected and corporate 
        officials can enable productivity through technology more 
        effectively in business and government. Primary responsibility 
        is to facilitate development of a policy for a decision support 
        system for national location based information integration. 
        ESRI, the world leader in location based software and 
        applications, is headquartered in Redlands, California.

        <bullet>  Recent keynotes include presentations on health care, 
        health data standards, alternative energy, education policy, 
        natural resources, homeland security, the importance of 
        government services enabled through Internet portals, web-based 
        infrastructure, e-government planning and sustainability of 
        Earth's resources.

        <bullet>  Received the National Association of State Chief 
        Information Officers (NASCIO) 2004 National Technology Champion 
        Award.

        <bullet>  Governor Geringer and his wife Sherri have five 
        children and ten grandchildren. They reside in Wheatland, 
        Wyoming, the site of ESRI's newest satellite office.

                               Discussion

               Consequences of Earth Observation Drop-off

    Chairman Gordon. Thank you, Governor. And those were good 
recommendations that we certainly want to put in the mix. Thank 
you for that real-world suggestion.
    Dr. Moore, as you showed us this--the budget, it 
demonstrates that, really, these systems have been hit with a 
double-whammy. One is the reduction in funding and secondly, 
just the ineptitude at NPOESS. It is, you know--the waste of 
money there is so disheartening. It--this--that is a major 
priority for this committee under Chairman Boehlert, he did his 
best to try to get a handle on that, and I don't think that we 
got good information, and he--I think he would concur with 
that.
    I have talked both with the Secretary of Commerce as well 
as the President and CEO of Northrup Grumman. They tell me they 
are on top of this now, and it is going to be our priority. And 
so I hope we are going to see it brought back into line.
    But let me--what I would like to ask you about is you 
mentioned there were 17 replacement missions, although none of 
those are in the budget for 2008, and it is--if history is any 
lesson to us, it is--certainly, I think we can assume that all 
17 won't be in the future, and very possibly, none.
    So can you tell me--can you break that down in terms of 
what we are going to lose in terms of just status quo if we 
don't have these 17 missions versus what we are going to lose 
in terms of keeping up with the state-of-the-art?
    Dr. Moore. Yes. Congressman Gordon, let me first agree with 
you that circumstances we face today are the result of a 
perfect storm. A decline in the NASA budget and then the 
failure on the NPOESS leave us in a very precarious position.
    What are we not going to have?
    We recommended earlier in our--early in the study, for the 
early phase, an ICESat follow-on--the ICESat mission failed. 
There were difficulties. And yet we know the ICE measurements 
are one of the critical measurements as we look at the question 
of climate change. The Earth radiation--this is fundamental to 
any climate model. That was descoped off of the NPOESS system. 
And so now we are vulnerable.
    I think the issue of carbon sources and sinks, there is a 
mission that is being developed, the Orbiting Carbon 
Observatory. But it is sunlight-dependent, and it must operate 
in a very clear sky. When you don't study the carbon cycle, the 
sources and sinks, because of photosynthesis, adequately with a 
sunlight-dependent mission. So we have to have a follow-on that 
uses lasers. That is not in the budget.
    The issue of hyperspectral, for instance, in determining 
disease outbreaks, this is something we have tried to achieve 
for a number of years. That is not in the budget.
    Air pollution modeling--monitoring, that is not in the 
budget.
    And I want to go back to one thing that we mentioned 
earlier. All we have to do is to get back to where we were. And 
so as a percent of GDP, as a percent of the NASA budget, as a 
percent of household income, that would be lower in the future 
than it was in the year 2000 and the year 1996. At that time, 
this country thought that these measurements were important, 
and we have just gone down this slide. And I think that the 
extraordinary thing is we can achieve this robust program if we 
could just simply get the budget restored back to where it was 
in the year 2000.
    Chairman Gordon. Thank you.
    Governor, do you endorse this proposal?
    Mr. Geringer. Chairman, yes, there are several features of 
this proposal, in particular, the ones that call for innovation 
and creative approaches, and a formal planning and program 
office, such as through the OSTP, to pull everything together 
to consolidate a vision, in a practical way, put a process 
together to where it could be administered to phase it and make 
it work.
    Chairman Gordon. And Governor, as a Republican western 
governor, who, as you say, has seen this up firsthand, could 
you, again, tell us what you think if--you know, we have all 
seen the ad about pay me now or pay me later. I mean, in terms 
of money, public and private dollars, in terms of suffering of 
folks, just at least in Wyoming and the west, what is your 
opinion of what kind of price are we going to pay if we don't 
do this?
    Mr. Geringer. Well, the price you pay is tough to quantify, 
but in terms of just what we enable other people to do, I guess 
my focus would be on not the dollars that are spent but the 
frustration of individuals who know what they could do if they 
had the tools and the information to make decisions, to manage 
the risks, to make their own business work.
    Now we have five children, 10 grandchildren. They are all 
interested in what they might do. And instead of expecting a 
job, we would like them to go out and make a job. Well, how do 
you make a job if you don't know the information required to 
plan your industry, to manage the risk, and to understand the 
marketplace? And the marketplace is driven by a lot of external 
information, particularly derived from satellites, such as 
this. So it is--the cost is beyond dollar amounts. It is just 
in our ability to enable the next generation.
    Chairman Gordon. Thank you.
    My time has expired.
    Mr. Hall.

            Priorities and Recommendations of Decadal Survey

    Mr. Hall. Governor, the Decadal Survey, as you know, 
recommends an increase of $500 million per year in NASA's Earth 
science budget to implement the Survey's recommendations, but 
we are told in what we hear and what we read and what seems to 
be every--almost everyone's understanding is that we are not 
likely to see that large an increase in NASA's budget any time 
in the near future.
    Given the limited funding situation, which of the missions 
recommended by the Decadal Survey do you believe are the most 
important for the Federal Government to implement?
    Mr. Geringer. Chairman--Congressman Hall, the--I don't know 
that I would pick out any one, but I would pick out an 
approach, I guess is the best way to put it.
    The recommendation, and this is not a mission in 
particular, but it is a recommendation where the--where OSTP 
pulls together everything, I think, is one of the lowest costs 
and probably a very significant cost-avoidance recommendation. 
So we can put together a plan to achieve and sustain. I think 
the first concentration needs to be on to sustain what we 
expect to be out there. Look at the predictive capabilities for 
today's storm here in DC. If we lose that capability, I can't 
imagine what would go on outside your doorstep here.
    The other things, and Dr. Anthes and I were talking earlier 
about GPS systems, the Global Positioning Satellites that are 
up there that can be used with suborbital sensors to detect 
changes in the atmosphere, major density. It is a relative low-
cost mission that could be accomplished with existing 
satellites complemented with a marginal increase in funding.
    I particularly like one of the recommendations that says 
that the three agencies, principle agencies, NASA, NOAA, and 
USGS, should pursue innovative approaches. I think we need to 
cut them loose and let them pursue some innovative approaches. 
That is one of the things that has always benefited our economy 
and our competitiveness. Let us not be so rigid. Let us get 
them the tools, the ability, and the funding to make it work in 
creative ways.
    Mr. Hall. I will ask one other question of Dr. Anthes.
    You made the statement that I agree with. You said we want 
to get back to where we were. And we are in the second month of 
that this year of wanting to get back to where we were prior to 
the November election. So I am going to--I think you made a 
good statement. You must be a Republican.

                    Improvement of Weather Forecasts

    Seriously, let me ask you this. Explain to us, with some 
kind of concrete example, how the missions recommended in the 
Decadal Survey is going to improve weather forecasts. And are 
we talking about more accurate predictions, longer-range 
predictions, or some other type of improvement----
    Dr. Anthes. Thank you very much----
    Mr. Hall.--to get back where Dr. Moore says we ought to be?
    Dr. Anthes.--Congressman Hall.
    I was referring to the non-partisan state of Earth 
observations----
    Mr. Hall. Okay.
    Dr. Anthes.--just for the record.
    I appreciate that question.
    I think this gives me an opportunity to talk about what we 
need is a system of observations. It is not--we don't have a 
silver bullet out there to improve weather forecasting. It is 
very much like when you go to the doctor for a check-up, you 
don't just ask--he doesn't just ask you--or she ask you how 
much you weigh or how tall you are or what your blood pressure 
is or what your cholesterol level is or how fast you can do a 
treadmill or what your heart condition is or your lung 
condition is. You need to know all of these things about the 
body. So you need many different kinds of observations, if, 
number one, you are going to understand the health of the body, 
and number two, if you are going to make any kind of 
projections about what your prognosis is for the future.
    So weather forecasting is kind of like that. We don't need 
just temperatures in the atmosphere or just ocean temperatures 
or just winds or just cloud cover. We need it all, because they 
all contribute independent information.
    So what we are suggesting is this balanced set of 
recommendations, which includes winds, temperature, water 
vapor, ocean temperature. These are going to improve all 
aspects of weather forecasting from the two-week forecasts--by 
the way, I did a hearing at the Senate just a week ago. When I 
got back to the hotel, I looked at the long-range forecast, and 
I said to my colleagues here, ``Tuesday is going to be a big 
storm event in the east. Watch out.'' That is a--seven days in 
advance, and that is not bad. We stand to lose that capability 
if the present trends toward observations--loss of observations 
continue.
    On the positive side, we are not anywhere near the limit in 
predictability, what we could do. Look at Katrina. Katrina, a 
wonderful forecast, but that was unusually good. We need to get 
every hurricane forecast hitting--heading for the Gulf Coast, 
the East Coast with that accuracy.
    So it is not just a negative thing about forecasts getting 
worse if we don't get more--if we lose observations that there 
is a positive benefit here of getting a balanced set of 
observations and improving our forecasts of tornadoes, 
hurricanes, extending the warnings of severe events, and right 
into the interseasonal variability of climates, including the 
droughts that the Governor talked about.
    Mr. Hall. How long would it take--excuse me. Is my time up?
    Chairman Gordon. It has, but, sir, you go right ahead if 
you need----
    Mr. Hall. I just wanted to ask a follow-up. How long would 
it take the average citizen, with all of those types of tests 
that--all of us can understand any of them individually but not 
all of them together. How long would it take until the 
natural--the average citizen would see these improvements in 
daily operational weather forecasts? And if accuracy is your 
main thrust, what about the long-range, the timeliness of it?
    Dr. Anthes. Well, forecast improvements have been gradual, 
and they will continue to be gradual. So the--but what happens 
is the humans' expectation grows as the accuracy gets better. 
So what we take for granted now as a three--as a good three-day 
forecast, we are now expecting that at six days or seven days. 
And so the expectations rise as the accuracy rises.
    However, people who really look at this and depend on it 
for an economic living know. They keep track of the scores, 
accuracy increases and such, because they are making decisions 
based on probabilities. And so the people who really need it to 
make quantitative decisions are doing this right now.
    For you and me, the public, it will be so gradual, it--you 
know, you will wake up 10 years from now and we will have good 
two-week forecasts instead of good week forecasts.
    So it is gradual for the public. It is very valuable and 
well monitored for the decision-maker.
    Mr. Hall. I thank all three of you.
    Yield back.
    Chairman Gordon. The gentleman's time has expired.
    Mr. Udall is recognized for five minutes.
    Mr. Udall. Thank you, Mr. Chairman.
    I wanted--I want Judge Hall to know that we always take him 
seriously.

               Details of Decadal Survey Recommendations

    I did also, in the Decadal Survey recommendations, note 
that there were over 100 proposed missions, and you all 
distilled it down to 17, with the idea that they are 
integrated. And I am sure there were some tough trade-offs 
there, but I think it is important that the Committee 
understand that and the general public that this is not just a 
wish list. This is a very focused effort to identify where we 
would have the maximum return on our investment.
    If I could, in that spirit, I wanted to talk about the 
opportunity cost to explore that if we do not maintain a robust 
Earth-observing system. And as I understand it, we need 
continuity in Earth-observing data over long time periods to 
improve smaller-scale regional climate projection models. And 
it seems to me that we are going to need better regional 
information that would allow us to be better prepared for 
changes in climate that are likely to occur, even if we 
stabilize greenhouse gas emissions.
    And then also, if we--and I shouldn't say if. I want to say 
when we adopt measures to limit greenhouse gases, we will need 
to verify that the measures we adopt are, in fact, resulting in 
reduced emissions and lower concentrations of greenhouse gases.
    So what role would the Earth-observing system you are 
proposing play in fulfilling those needs? And is it going to be 
more difficult to--or take longer to accomplish these two 
things without an Earth-observing system?
    Maybe start with Dr. Anthes, and then Dr. Moore, you could 
follow on.
    Dr. Anthes. Well, that is a very excellent question. And 
the programs that we are proposing--first of all, it is a 
really good--you noted that we went from over 100 proposed 
missions to 17. And one of the criteria we had for 
prioritization was that it had to be affordable.
    The second point is it is a balanced program. It supports 
climate as well as weather. It supports industry, agriculture, 
water management, as well as science. And so the program we are 
proposing is an integrated set of observations, and we think we 
need them all for exactly the reasons that you iterated.
    Mr. Udall. Dr. Moore.
    Dr. Moore. Let me just draw attention to three points.
    First of all, as you note, stabilization of greenhouse gas 
emissions is going to be a very real challenge, but a challenge 
we must meet. Stabilization of emissions does not lead to a 
stable concentration in the atmosphere. Stabilization of 
emissions is a step towards stabilizing the concentration of 
the atmosphere. But stable emissions will only lead to a 
constant growth of CO<INF>2</INF>, for instance, in the 
atmosphere. So that means that we have to face this question of 
climate change head on.
    One of the missions that we recommend for the early 
timeframe focuses on soil moisture. Soil moisture is, perhaps, 
one of the key ingredients in climate models as well as in 
terms of what is really important to the people who live based 
on--in areas based upon agriculture. But it also means that if 
you live in an area that is a flood plain. So I--that is a key 
issue.
    And the third is that the kind of missions that we 
recommended, for instance, on CO<INF>2</INF> where we looked at 
sources and sinks of carbon dioxide. Any kind of management 
system of greenhouse gases is going to require the knowledge of 
what are the sources and sinks for carbon dioxide. It is 
fundamental.
    Mr. Udall. Chairman Gordon, I know the clock isn't running. 
I am assuming I have got a minute or two left. Or I should say 
the lights aren't working.

           Addressing Emerging Regional and Global Challenges

    Chapter 2 in the report lists six emerging regional global 
challenges. To mention two of them, changes in natural systems 
due to climate change and the role of ice sheets and the sea 
level rise, and there are four other identified challenges.
    Can we address those challenges if we don't maintain an 
Earth-observing system? And maybe you could provide an example 
or two that would illustrate our ability to respond to these 
challenges would be limited by the lack of information from 
Earth-observing systems if we don't have those up in place.
    Dr. Anthes. Well, there is--we could all probably come up 
with many examples. Let me just give one.
    Sea level rise is one of the most important issues facing 
society, particularly in the next generation and the generation 
after that. For many years, the models of glaciers indicated a 
relatively slow melt of the Greenland ice cap. But just in the 
last few months and years, through measurements, very precise 
measurements of the Earth's gravity field, we could tell that 
the--Greenland was losing mass at a far faster rate than the 
models of ice melt would indicate. And what apparently is 
happening, and I am not a glaciologist, so bear with me, but 
apparently, it is the--water is running down and causing 
slippage of the ice off the continent, and perhaps a much 
faster rate of ice melt than we were predicting a few--even a 
few years ago.
    So if we suddenly stop measuring the Earth's gravity or 
suddenly stop measuring how fast the ice is melting, we don't 
know whether that is an anomaly, you know, that happened to be 
an anomaly over the last couple of years, a rapid ice melt and 
is going to go back to a slow melt, or it is going to continue 
to accelerate.
    And so what we might be thinking is 100-year problem might 
suddenly become a 25-year problem. We don't know. But these are 
the kinds of questions and--that we really need to stay on top 
of, because we are going to have surprises.
    Chairman Gordon. Thank you, Doctor.
    The gentleman's time is expired.
    Mr. Bartlett is recognized for five minutes.

                  Environmental Data and Ethanol Usage

    Mr. Bartlett. Thank you very much.
    As you probably have noted in the papers, our zeal for 
producing ethanol has driven the price of corn from $2.11 a 
bushel in September to $4.08 a bushel in December. This is very 
likely, I think, to encourage farmers to take lands out of 
agricultural reserve, most of which lands shouldn't really be 
farmed, which is why they are in there, but $4-a-bushel corn is 
going to be a big incentive to take those lands out of the 
agricultural reserve and put them into production.
    There are other reasons for being concerned about the use 
of fossil fuels. But if we limit ourselves just to the 
environmental effects, clearly, we need to understand the 
environmental effects of CO<INF>2</INF>, and we do, but there 
are also going to be big environmental effects of taking these 
lands out of agricultural reserve and putting them into 
production.
    My question is how much will our decision-makers lose in 
quality data for making decisions to how we need to move in the 
future relative to this ethanol thing if we don't have the 
additional programs that you all are encouraging?
    Dr. Moore. This is an area where I want to compliment NASA. 
It does appear that the increase in 2008 and 2009, which is an 
increase of a downward trend, is to essentially address, as I 
have mentioned in my testimony, the precipitation mission and 
the Landsat. The Landsat satellite system will be fundamental 
in monitoring agricultural regions, absolutely fundamental. You 
need the high resolution if you are to determine what type of 
crop is growing. And so this whole issue of biofuels will be 
very dependent upon the Landsat system. For that, I think that 
NASA is doing a good job at getting it back on track.
    Mr. Bartlett. Our public policy people are going to be 
caught on the horns of a dilemma. Clearly, greenhouse gases are 
implicated in the increase to Earth's temperature. And that is 
a big environmental concern. But all of life on Earth is 
dependent on about the upper eight inches of topsoil. If you 
can't grow food, you are not here. And as we take this land out 
of reserve and put it in production, we are going to be losing 
more topsoil. And so our policy-makers are going to be faced 
with a tough decision. Do we save our topsoil by increasing 
CO<INF>2</INF>, which is the greater of those two evils? And my 
concern is that we will need more, not less, information for 
making those decisions.
    And I would just like to get on the record my concern, and 
the concerns of a great many people, that there are two 
environmental concerns here that are kind of intentioned. And, 
you know, which way are we going to go? And I think that will 
be largely dependent on the quality of the information we get.
    And so in a very real sense, this is more than just an 
academic exercise. It will affect each one of us, not only by 
the quality of the air we breathe, but potentially, by the 
volume of crops that we are able to grow.
    Mr. Geringer. Mr. Chairman, let me--I think it was more of 
a statement than a question, but let me respond anyway.
    You asked what would happen.
    One of the things that agriculture uses, one thing that a 
governor uses is as much information as it can. Having been in 
politics for a number of years, I am struck by how, in the 
absence of information, we make decisions anyway. Anecdotes 
serve us well, don't they? It is easier to make a judgment 
based on an anecdote from a story back home, absent any other 
information.
    So now let me turn it around and say if we had better 
information, such as what Landsat-5 and Landsat-7 started but 
are not going to continue, and certainly the granularity and 
the detail that we need today just to make individual decisions 
in agriculture production for individuals and then to take that 
beyond and say what has been the impact of increasing ethanol 
or other renewable fuel production as an offset to, say, food 
supply or the loss and erosion of topsoil? What are the 
practices that happened? How do we know that they are 
happening, other than anecdote, if we don't have a broader view 
that only satellite imagery can provide, as well as ground-
based information?
    So you need a combination. We are not going to be able to 
even evaluate the shift of production from food to fuel if we 
don't have the sensors in place.
    Chairman Gordon. Thank you, Doctor--Governor, and thank 
you, Dr. Bartlett.
    Mr. Bartlett. Mr. Chairman, I know my time is up, but I 
would like unanimous consent to submit a question for the 
record, if I----
    Chairman Gordon. Certainly.
    Mr. Bartlett.--might.
    Chairman Gordon. Certainly.
    Mr. Bartlett. Thank you, sir.
    Chairman Gordon. Dr. Wu.
    Mr. Wu. Thank you very much.
    And my mom always wished I had finished medical school, and 
I have been upgraded. And I am going to tell her about this.
    Thank you very much, Mr. Chairman.
    First just a--drop-out is such a harsh word. I am on a 
leave of absence from my medical school, which has now gone on 
for approximately--well, we are approaching the end of the 
third decade.
    Chairman Gordon. Of course, that was after getting a law 
degree, too, so----
    Mr. Wu. And I am told--I am sure that if I just admitted my 
dire mistake, they would let me back in, because the admissions 
committee there never makes mistakes.

                           Weather Prediction

    But first, just a question of curiosity, for you gentlemen.
    A meteorologist friend of mine said years ago that at five 
days, the forecast is random. You might as well just, you know, 
just throw it against the wall, but that was a few years ago. 
At what point does your forecasts or any meteorologist's 
forecasts just kind of go random these days? And I am just kind 
of curious.
    Dr. Anthes. Well, that is an excellent question.
    Years ago, there was some theory done on non-linear 
systems, which said there was a predictability limit of about 
two weeks. That was the theoretical limit. That is after two 
weeks, things were deemed random.
    We may be a little longer than that, but that is still the 
order. We don't see what we call the typical weather forecasts 
being accurate, ever, beyond more than a couple of weeks. Right 
now, we have a pretty good scale out to seven to ten days.
    Mr. Wu. Seven to ten days? Okay. Yeah. My Blackberry gives 
me six days, so it is within that margin.
    Dr. Anthes. Yeah.
    Mr. Wu. Yeah. Okay.

               Restoration of Dropped NPOESS Instruments

    A more serious question. The Chairman referred earlier to 
the NPOESS program. And my understanding is that because of 
cost issues, cost overruns, that various instruments have been 
sort of thrown off the bus. And they tend to be the climate 
instruments. And Dr. Moore, you mentioned earlier that soil 
moisture is a very, very important factor to track for climate 
change purposes. And it also is the case that our military is 
very interested in soil moisture for other reasons. So I assume 
climatologists have a very strong interest in soil moisture for 
one set of reasons, and the U.S. armed forces have the same 
interest.
    Now I think a list is coming of the various instruments, 
which were tossed off the NPOESS for budgetary reasons, and I 
just want--I am just asking you all, if you are familiar enough 
with it, if you could identify the order in which you would 
bring the cast-off instruments back. If you are not familiar 
with the hardware enough, at least the data streams that you 
would like to see, the cavalry coming, the data that you would 
like to see from NPOESS.
    Dr. Moore. Yes, Congressman Wu.
    In the Decadal, we prioritize under a very limited basis. 
We recognized the budgetary difficulties. And the first was the 
Earth radiation budget instruments, that is to measure the 
solar radiance and the reflected energy off the planet. The 
second was the profile of ozone in the atmosphere, because we 
are in this period of regulation the fluorocarbons, and we are 
going to see, hopefully, the restoration ozone hole. Monitoring 
that profile, the different concentrations in altitude is the 
second priority.
    Mr. Wu. Would that be aerosols?
    Dr. Moore. No, that certainly is a priority, but now we 
are--we, essentially, felt that, given the constraints of the 
budget on NPOESS, that was about as far as we would recommend 
in terms of restoration.
    Is that all we need to do? Absolutely not.
    Mr. Wu. I am sorry. I am just trying to look on my list 
here, and I am not finding an ozone meter, per se, but which 
instrument would that be in?
    Dr. Moore. Yeah. It is called ozone--the OMPS instrument. 
It is the limb-sounding aspect that was lost, the----
    Mr. Wu. OMPS limb.
    Dr. Moore. Right.
    Mr. Wu. Okay.
    Dr. Moore. That was lost, so that we are recommending to 
put back on, and the series and the solar radiance monitor we 
are recommending to put back on.
    With regards to the soil moisture, that was to be measured 
by an instrument called CMIS. This is a follow-on to what is on 
the Defense meteorological satellites right now. Given the fact 
that that was the--descoped, we called for the preservation of 
sea surface temperatures and winds. And then we offset the loss 
of the soil moisture by recommending a NASA mission in soil 
moisture.
    And I must say that there are a lot of very important 
measurements. For instance, sea surface altimetry that Dr. 
Anthes spoke about. The sea level height. That instrument is 
gone. We are trying to compensate for that by recommending an 
altimeter to NASA. It is true that most of the climate 
measurements were lost on NPOESS, and I think that perhaps the 
best strategy is the program we are recommending to NASA.
    Mr. Wu. If you are pushing over to NASA, is that realistic, 
given the budget crunch over on that side of the house, if you 
will?
    Dr. Moore. No, I----
    Chairman Gordon. A quick answer, please, sir.
    Dr. Moore. I understand this budget issue and the budget 
crunch, but the fact remains is that the observational needs 
exist. And the budget was reduced over six years by a third. 
That seems to have been an error----
    Chairman Gordon. The gentleman's time----
    Dr. Moore.--therefore, we need to restore that budget so 
that we can meet the observational needs of the planet.
    Chairman Gordon. The gentleman's time has expired.
    Mr. Rohrabacher is--has five minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    First, I would like to congratulate you on your report and 
the hard work that went into this and the discipline necessary 
to actually come up with something that does not totally depend 
on what I consider to be a trendy issue of the day, which is 
climate change overall. You have made your arguments that 
included climate change as a reason, but you have well outlined 
your--you know, your--basically, the benefits that we will 
derive even if we don't have a global warming scenario. You 
have outlined the need for the type of observation that you are 
advocating.
    And let me also note that it is unfortunate that we lost--I 
guess it was a $3 billion overrun for NPOESS. I mean, that is 
what we are talking about. The $3 billion, let me note, Mr. 
Chairman, what could we do with $3 billion? We could implement 
everything that is being said today. The request, basically, 
today is let us make up for the failure of NPOESS. That is 
basically what we are saying, because that is a six-year--well, 
they are asking for $500 million a year. It would put us back 
on schedule. And we lost $3 billion from just the overrun 
costs.
    Let me add, there are some questions as to the reason why 
NPOESS failed. And some of the reasons--and I know people 
aren't going to want to hear this, but some of the reasons are 
additions to NPOESS, things that were added onto NPOESS that 
were designed to prove climate change, which helped the failure 
of NPOESS. So there is a cost when people go after things that 
maybe trying to stampede the public into spending more money 
for climate change that ends up a dramatic cost to other 
aspects of what we would like to achieve.
    I was especially interested in the fact that this does 
measure sun and solar activities, which I believe are the basis 
for a lot of the--whether the human activity and carbon being 
put into the air, or hydrocarbons being put into the air and 
greenhouse gases may well explain why we have certain changes 
in climate and temperature on the Earth.
    Let me ask this about, you know--we--again, you have given 
me a lot of information. And by the way, I would just say, 
again, I thank you for that, because I was listening intently, 
and I think you all made your point. And Governor, I am glad 
you were here to make a--to really tell us what it--how we--
this is going to be cost-effective for humankind to know this, 
because it is. I mean, we are talking--you are not talking 
about contributing just knowledge. You are talking about 
contributing something that is going to change people's way of 
life for the better. And again, I think you have made your 
arguments today.

               Record of Hurricane and Cyclone Intensity

    The--I guess I don't--I was just taking notes while you 
were going through here. I--let me ask you, Dr. Anthes, is that 
how you pronounce it?
    Dr. Anthes. Anthes.
    Mr. Rohrabacher. Anthes. Are there more cyclones and 
hurricanes today than there used to be?
    Dr. Anthes. That is a very good question, and it is a hot 
topic of debate, I will put it that way.
    Mr. Rohrabacher. That is why I ask it.
    Dr. Anthes. We don't--I, actually, started out as a 
tropical cyclone research meteorologist. And I must say, 
because of the observational record being particularly bad 
before the advent of satellites in the 1970s, we have maybe 70 
years, 80 years, 90 years of an incomplete--an imperfect 
satellite data record on tropical storms. So frankly, you know, 
you will read papers on both sides of this point.
    Mr. Rohrabacher. Okay.
    Dr. Anthes. Frankly, I don't know. I haven't made up my 
mind yet.
    Mr. Rohrabacher. All right.
    Dr. Anthes. And that is one reason for having these 
observations from space so that we know whether trends of 
intensity is increasing or not, because I don't think the 
evidence is conclusive yet.
    Mr. Rohrabacher. Now I will have to say, I sat through 
hurricanes when I was younger, when I lived in North Carolina, 
when I was in, like, sixth or seventh grade. And I read about 
the great hurricanes that came through Florida and Galveston, 
Texas. We know that they were very huge tropical storms then.

          Need of Satellite System for Agricultural Production

    One question for the Governor, and then I guess I--my time 
may be up.
    Why is it--why do you see it being necessary to have a 
satellite system that gives an overall view of, for example, 
agricultural production? Don't we have enough computerization 
and records being kept throughout the states and by the Federal 
Government based on just the number of farmers and the type of 
bureaucratic efforts that we make? Don't we--isn't that 
accurate enough to see how many acres of corn we are growing?
    Mr. Geringer. Mr. Chairman, Congressman Rohrabacher, the--
we do accumulate a lot of information, and one of the points I 
made is that we don't know how to discover and serve that 
information in a useful way. So that is part of the answer.
    The other part of it is we don't know the extent. And I 
will give you a different example. It is not even in our 
country. There is a consortium of countries that have put 
together a satellite constellation called the Disaster 
Monitoring Constellation. That is the United Kingdom, Algeria, 
China, Nigeria--Algeria and Nigeria and Turkey. Now they 
launched these--constellation of low-cost satellites to monitor 
for disaster prediction and mitigation. But what they have done 
is they have started monitoring opium production in 
Afghanistan. Now they don't have quite the statistical 
reporting system that we have in the United States on opium 
production, but they have shown that in the 1 year from 2005 to 
2006 that the opium cultivation grew by about 60 percent in 
Afghanistan. That affects us. It doesn't affect agriculture. It 
affects everybody.
    Now how do we truth what is reported on the ground through 
statistical reporting services the soil condition, the erosion, 
you know, the loss of forests and things like that? How do we 
truth that up with what is reported on the ground of what the 
satellites look at? The MODIS satellite is one of the key 
satellites that we use for that kind of information, in 
addition to Landsat. So there is--it is the ability to know 
what you have, the quality of the data, how to use the data, 
and then how do you integrate it to where you can make an 
overall decision, a systematic decision, not just a knee-jerk 
type of one.
    Mr. Rohrabacher. Well, thank you very much. And again, I 
think you have made your case, and I appreciate good 
suggestions, by the way, as well, not just making the case for 
the expenditure but suggestions on how we can manage the system 
and do a better job for--and be more effective for what we do 
spend.
    So thank you very much.
    Chairman Gordon. The gentleman's time has expired.
    And I will say that, Mr. Rohrabacher, your line of 
questioning always makes for a better hearing, and we thank you 
for it. But I will point out one thing, that the knobs on the 
global warming instruments go both ways. So it is not just to 
prove it. It could be also to disprove it.
    The gentlelady from Texas, Ms. Johnson.

                  Consequences of Gaps in Data Records

    Ms. Johnson. Thank you very much.
    And thanks to the witnesses for being here. It has been 
interesting. I guess I have a question that might be considered 
kind of dumb.
    But when we have interruptions of observation where--no 
matter what causes it, is it thought that we miss something in 
the meantime, or does it interfere with how we work to certain 
points?
    Dr. Anthes. Well, that is--it is not a dumb question.
    Explaining why gaps in the data record are important is not 
that easy, but let me try.
    If you are looking at a--say, a 20-year cycle, and you miss 
seven years of that cycle, you are not going to be able to tell 
what that cycle really is if you are missing seven years out of 
20. So that is one reason.
    Another reason is a gap at the end of the record, in other 
words stopping a measurement, is the worst gap of all, because 
you don't know whether the last little up tick or the last 
little downturn is continuing for the--you know, into the 
future or not. If you look at any record, you will see this 
kind of thing. If you stop at this point, when you are going 
down and the gap starts, you don't know whether that turns 
around and starts coming up again or if it continues to go 
down.
    So gaps are a very important problem in terms of 
understanding cycles and trends of whatever it is, sea level, 
temperature, water vapor, precipitation, drought frequency, 
whatever.
    Ms. Johnson. So when you have great reductions in the 
budget and perhaps gaps, is it worth the investment to start 
and stop, start and stop, or--and do we get any real useful 
information, or are we wasting money if we don't do it any 
better?
    Dr. Moore. I think one of the challenges, and I believe the 
Governor noted this also, is the question of sustainability of 
the observation system. And that actually carries with it some 
real requirements.
    Instruments don't last forever, and that is why we have 
gaps. One of the problems is that if you are measuring 
something like temperature, and it is increasing slowly, and 
that instrument fails and then we put another temperature 
instrument on orbit, if we don't overlap those two instruments, 
how are we then to interpret what the new instrument says? For 
instance, maybe the new instrument shows temperature increasing 
even more rapidly. Is that because it is a new instrument, or 
is that because of what the temperature is doing?
    So the issue of sustainability is the--is right at the core 
of what we are addressing.
    Ms. Johnson. Um-hum. Thank you.

          Physical Improvements vs. Environmental Improvements

    There is no question in my mind about climate change. If 
you live and breathe every day, you can observe it.
    What--where my questions still are is if we don't find much 
of the reason and start to correct that, where do we go from 
here? I went over and looked at the results of the tsunami. And 
as we returned, the latest rumor was that it might happen in 
California, and so that was an urgency to see if they couldn't 
get the observation network in place.
    What comes next? I mean, we can observe, and we can 
predict, and I know that we have lost--we have saved a lot of 
lives by predicting, but we haven't done very well with 
property. I am fully aware that if we had worked on levies when 
we were supposed to back in New Orleans, it probably would not 
have been as bad. But predictably, would it have come? And--
because, according to the simulations that we had observed, it 
was coming. And I don't know whether we concentrate on making 
sure that levies are strong or that we concentrate on changing 
something in the environment where we can avoid some of the 
destruction if we had an idea of what we needed to do.
    Mr. Geringer. Maybe I can answer it in a little different 
way.
    I was visiting with the executive of King County, 
Washington about a week ago, and he is taking an approach that 
if something does happen, based on climate change and causes 
the sea level to rise, what could be causing that, it could be 
the greenhouse gases. So they are taking an approach from two 
different angles. One is to reduce the amount of carbon that 
they use in King County, which includes a significant part of 
Seattle, Renton you know, those--where some of those companies 
are that we hear about, reduce the amount of carbon and at the 
same time, based on the prediction of sea level rise by 2050, 
raise their levies to where there will be no flooding. And then 
with the carbon that they have offset, that becomes a revenue-
raiser for King County. They can sell and trade carbon credits.
    So they are doing two things. One is they are decreasing 
the total amount of greenhouse gas, anticipating that there is 
still going to be a rise in sea level, and over time, of 
course--and the idea is that it flattens out or at least 
declines. So they are taking an approach like that where they, 
from a practical point of view, raise a little revenue but 
improve the situation as well.
    Chairman Gordon. Thank you, sir.
    The gentlelady's time----
    Ms. Johnson. Thank you.
    Chairman Gordon.--has expired.
    Mr. Bilbray is recognized for five minutes.

                             Global Dimming

    Mr. Bilbray. Thank you, Mr. Chairman.
    Gentlemen, I come from an air-regulatory background, the 
Air Resources Board in California. And because of sensing and 
monitoring, we totally changed our strategy on air emissions. 
We had grossly underestimated the evaporative emissions, and we 
couldn't figure out what--where all it was coming from until we 
figured out it wasn't coming out of the tailpipe.
    I am--my interest here is what you are proposing is giving 
us the tools to be able to develop and execute good policy.
    And Governor, I think you are pointing out that remote 
sensing gives us the ability to monitor where we may not have 
records. And a good example is that the third world. So many 
people say the third world is not a major factor here. It is 
because we don't have any air indexing in the third world. And 
remote sensing may be the only way for us to detect what is 
going on there.
    The question I have, Dr. Moore, would be one of the new 
factors that have been thrown out is the concept of global 
dimming. And some people may agree with it or totally ignore 
it, but I think that we have got to remember that when Roger 
Revelle talked about global warming 20 years ago, some people 
wanted to ignore him, too. Does our--does the remote sensing 
that we are proposing here give us the ability to at least 
monitor, maybe, the effects of global dimming and how 
particulate--suspended particulates may be affecting or 
moderating the climate change at this time?
    Dr. Moore. Yes, it does, Congressman. It directly addresses 
the question.
    And you are absolutely correct in noting that the question 
of global dimming is fundamental to climate change. It is also 
fundamental to public health.
    The issue of particulates and aerosols work the climate 
system both ways, both as a warming and as a cooling.
    One of the missions that we recommend, which is called ACE, 
directly focuses on this question of aerosols and their 
influence on the climate system.
    Second, we are also recommending a geostationary air 
quality mission, which I think would address some of the 
question that major urban cities are going to have as to how 
much of the pollution is local and how much of it is 
transcontinental.
    Mr. Bilbray. Okay. And that is essential data. I appreciate 
you bringing that--you know, pointing that out, because one of 
the problems I have had with federal policies on a lot of these 
issues was like the--mandate. They thought it was good. Within 
24 months, California knew that the federal mandate was an 
environmental negative, not a positive. And hopefully, I think 
it is essential, Mr. Chairman, that this issue will affect the 
total strategy. I think a lot of people are saying, ``Just do 
something about global warming.'' Well, we could be doing 
exactly the wrong thing at the wrong time if we don't get the 
right facts.
    And in fact, right now, in California, we are moving 
strategies ahead that assumes that the dirtiest technologies 
should be the first eliminated. But that may be the worst thing 
we do.
    So hopefully, you will be able to give us the information 
so that we not only are well-intentioned, but we are smart in 
the way we apply this. And that is what scares me to death is 
this rush to do anything could end up creating more problems 
than an informed and appropriate approach to it. And that is 
essential on this. And I--and hopefully the data on global 
dimming can be settled before we settle on a strategy.
    Dr. Anthes.
    Dr. Anthes. Anthes.
    Mr. Bilbray. Anthes. Dr. Anthes, let me just say, I 
appreciate you talking about the tropical storm issue, because, 
like my scientists at Scripp say, it is interesting that last 
year, global warming caused all of the big hurricanes, but this 
year, nobody talked about it. Well, it must be global cooling, 
because we didn't have any. And I appreciate the fact that you 
keep things on a balanced keel here, because it hurts the 
credibility of scientists when politicians start throwing 
around your data without having the facts.
    But I have a question for you.

                 Remote Sensing and Earthquake Activity

    I come from the State of California. Hurricanes and 
tropical storms haven't historically been a problem for us 
because of the cold water. That may change in the future. But 
you brought up the issue of being able to detect tsunamis, 
earthquakes, and other related seismatic activity that normally 
isn't an--remote sensing isn't a big deal out--except maybe 
observation. How long do you propose to use remote sensing to 
predict earthquakes, which then result in tsunamis and all of 
the other activity you were talking about?
    Dr. Anthes. Okay. Well, that is a really good question, and 
I am not a geologist, so I will just have to--but the--one of 
our missions, which measures, very precisely, very small 
displacements in the surface of the Earth. If you do a time 
lapse of these--I have seen these. If you do a time lapse of 
these, you can see the Earth breathing. In fact, I can show you 
valleys in California, which are just----
    Mr. Bilbray. Much like the same way we measure El Nino by 
looking at the rise and fall of the ocean.
    Dr. Anthes. Of the sea surface height. Right. Well, the 
Earth is actually changing its elevation by centimeters over 
time. And if you see--well, first of all, by measuring these--
where the Earth is changing its elevation and pulsating, these 
are active geological areas. These can help you, as I 
understand it, increase the probability of saying, ``Well, an 
earthquake is going to occur here,'' or ``A volcano is going to 
occur there,'' and of course, also then monitor tsunamis when 
they actually occur because of the change of ocean levels.
    Chairman Gordon. Doctor, we are going to have a vote pretty 
soon, so if you don't mind, we are going to--I think we should 
move on here.
    Mr. Bilbray. No, no. I just don't know how you are going to 
measure pulsating in Los Angeles. It always pulsates. So that 
is just a given.
    Thank you very much.
    Chairman Gordon. Dr. McNerney is recognized for five 
minutes.

     Potential for Private or International Partnerships in Remote 
                                Sensing

    Mr. McNerney. Thank you, Mr. Chairman.
    I want to thank the distinguished panel for their work in 
this area. I think it is a very important area.
    I was intrigued by Dr. Anthes' comments that some of the 
work--some of the missions will be to identify the small 
difference between radiation to the Earth from the sun and then 
radiation from the Earth as a consequence of that. And I think 
that is a very important thing.
    I noticed last week my distinguished colleague from 
southern--from Orange County asked some very pointed questions 
about wanting to know how--exactly how much of the carbon 
dioxide in the Earth's atmosphere was created by human 
activity. And I know that is a very complicated question, and 
the balance--or the issue between science and politics is a 
tricky issue. And it is our responsibility to have sort of a 
responsible pathway between those. And I think this is exactly 
one way that we can move forward to answering those kinds of 
very difficult and detailed questions.
    So one of the things I want to know is is there any 
opportunity in private and international partnerships to help 
us move forward in this--in these kinds of missions.
    Dr. Moore.
    Dr. Moore. I think that there is, and in our Chapter 3 
where we talk about implementing the missions, the very first 
thing we explore is leveraging foreign partnerships. And if you 
are, for instance, looking at something like the measurement of 
carbon dioxide that you mentioned and where is it coming from 
and where is it going to, that is an ideal example of what we 
could do internationally. The--using a synthetic-aperture radar 
to get the slight differences in the elevation of the planet 
and how those might lead to earthquakes, that is another great 
example of where we could collaborate internationally. Our 
European colleagues have made great advances with synthetic-
aperture radar. And so this would be another, because these are 
global issues. They are not just issues to one area of the 
planet. Earthquakes occur globally. CO<INF>2</INF> occurs 
globally.
    Mr. McNerney. How about the private partnership 
opportunities?
    Dr. Moore. I think the private partnership opportunities 
are extraordinary, particularly when you look at issues of land 
remote sensing, hyperspectral imaging. That looks at the 
reflected sunlight in many different wavelengths. This is a 
marvelous item for forecasting crop diseases. This is right on 
the border of what could be done commercially, and I think the 
Governor has really spoken out on this. This is a great 
opportunity.
    Mr. Geringer. One other comment I would make is if we don't 
keep up and we lose our edge in competitiveness, we lose two 
things. With international cooperation, such as through the 
Global Earth Observation System of Systems, we develop 
relationships so that we can understand and trust what we are 
getting back. Otherwise, we could be excluded, and the 
competition, then, leads the way. Who would we rely on to 
obtain the information we have no capacity to produce? So we 
need that kind of participatory opportunity as well as the 
leadership to make it happen.
    Mr. McNerney. Okay. I yield the balance of my time.
    Chairman Gordon. Thank you.
    And the gentleman from Michigan, Dr. Ehlers, is recognized 
for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Dr. Anthes, I am very pleased to hear your 
comment about the Earth rising and falling several centimeters 
a day, and now I know why I feel taller on some days than 
others.
    I also presume that my weight varies, because I am further 
from the center of the Earth.
    At any rate, more seriously, I can believe that a physicist 
just made this comment. I am very concerned about NPOESS, and 
we--you have talked about that in response to some other 
questions. I am very worried about the removal of some of the 
climate sensors. And clearly, we are not going to be--not going 
to have an optimized system. They are being removed simply 
because the cost of the project got too great, and we had to 
get somewhere.
    You have talked a bit--Dr. Moore, in fact, just mentioned 
in the last question international work. What efforts are being 
made or what do--efforts do you think should be made to try to 
get more international cooperation in some of these satellites? 
I know other nations are putting up their own satellites, but 
in a case like this where the entire international community 
would benefit from the additional climate observations that 
NPOESS could make, do you believe our nation should 
aggressively pursue the possibility of getting assistance, 
cooperation, and money from other nations? And would we be 
likely to succeed in that effort?
    I would appreciate any comments you have.
    Dr. Anthes. Well, I will take--a quick answer.
    Absolutely, we should. We should try all of these avenues 
and approaches.
    The United States, historically, has been the world leader 
in observations from space. In fact, the Europeans probably, I 
could argue, are making better use of the observations that we 
take than we are making--them ourselves, and this gets to the 
Governor's comments about it is more than just observations. It 
is how you use the observations.
    International cooperation is a two-edged sword. It can save 
money and distribute resources more equitably and cooperation 
and sharing and all of that. But there are other issues that 
make these international programs hard to manage. If one 
partner has--runs into funding problems, it jeopardizes the 
mission. If a country, which is friendly now, turns unfriendly 
10 years from now, you may not be able to get their data. There 
are ITAR issues about transferring technology to foreign 
countries.
    So yes, I agree we should pursue it aggressively. Probably 
it is not a substitute for having our own, robust program. But 
we should try to leverage the international partners wherever 
we can.
    Mr. Ehlers. Other comments?
    Dr. Moore. Just to note that that appears to be part of the 
plan to mitigate the NPOESS difficulties is to rely on the mid-
morning orbit from the Europeans. But I also second what Rick 
Anthes just said, that it is a two-edged sword.
    Mr. Ehlers. Now to what extent did your group, in doing the 
Decadal Survey, consider these issues? Did you come up with any 
particular recommendations on international cooperation and how 
we should proceed with it?
    Dr. Anthes. Well, we said, basically, what you just said. 
We should try every single opportunity that we can and try to 
reduce this overall cost by seeking international partners. And 
we didn't go any further than that. We didn't say mission 
number 13 should be an international one----
    Mr. Ehlers. Right.
    Dr. Anthes.--but all of them should be considered. And if 
the international community comes up with one mission that 
reduces the need for us to do the same thing, we should 
consider lowering that in priority.
    Mr. Ehlers. Do all nations freely share data with each 
other----
    Dr. Anthes. No.
    Mr. Ehlers.--in these climate missions, or is it----
    Dr. Anthes. No.
    Mr. Ehlers. Is it held very closely? Yes.
    Mr. Geringer. One comment I would make there, Congressman 
Ehlers, is if we don't have standardized protocols, data 
formats, and how we store and access information like that, it 
is not a matter of who is willing to share. It is a matter of 
whether you physically can or the technology isn't there to 
extract or transform to where you can use the data.
    So the minimum we could do is establish standards and 
protocols, and that is where the Integrated Earth Observation 
System was intended to head with the international 
cooperations. Just having the data in the format where you can 
use it is a simple step.
    Mr. Ehlers. And the other problem is getting all of the 
data down and analyzed quickly and properly. That is something 
I am also concerned about with NPOESS.
    I yield back, Mr. Chairman.
    Chairman Gordon. Thank you, Dr. Ehlers.
    I think our final questioner will be our Vice Chair, Mr. 
Lipinski.

                   Impact on American Competitiveness

    Mr. Lipinski. Thank you, Mr. Chairman. I know we are 
running short on time. I am going to make a quick question. I 
am not sure it is going to be a quick answer.
    But, Dr. Anthes and Dr. Moore, in the report, it says, ``At 
a time of unprecedented need, the Nation's Earth observation 
satellite programs, once the envy of the world, are in 
disarray.''
    I have a more general question. What impact does this 
have--do you see this having an impact on American 
competitiveness? Do you think it has a broader impact on our 
nation in that manner?
    Dr. Anthes. Well, that is a really good question.
    The--one of the points we try to make in the Decadal Survey 
is that these observations are useful to society and useful in 
management of resources, whether it is energy resources, water 
resources, supporting agriculture. So it--there is an 
efficiency issue here that we can become, as a nation, more 
efficient if we have these better weather forecasts, seasonal 
outlooks, we know how to buy energy and store it for the cold 
spells coming up. And so I think you can make a very good case 
that these observations of the environment do affect, in a 
positive way, the U.S. economy, making us more efficient and so 
thereby improving our competitiveness.
    My colleagues may want to add to that.
    Dr. Moore. I think there is another issue, also, that the 
declining budgets for Earth science at NASA send a signal to 
our graduate students and to our undergraduates as to what 
fields should they go into. And it is very tough to convince a 
young student that this is the direction that you want to take 
your life, because they say, ``Well, there is no future in 
that.''
    So I think that there is a fundamental issue as to why 
students may not be going into Earth science or mathematics or 
physics, because they look at the trend. They are quantifying.
    Mr. Lipinski. Having spent a few years in graduate school 
on my way to a Ph.D., finally, after many years, I understand 
the--you know, what impact that does have on what people are--
what students are pursuing.
    Thank you.
    Chairman Gordon. Well, let me just say, this really was an 
excellent panel. And I thank you very much for this very 
informative meeting today. I want to particularly thank the Co-
Chairs of the Decadal Survey for not just today but for two and 
a half years of hard, but important, work. This is a--really, a 
product that we need to have to try to move this decision-
making process forward.
    And Governor, you were a great breath of fresh air with the 
real-world approach, and let me please encourage you to 
continue to be active in these issues.
    I understand that everyone who has wanted to have questions 
has done so.
    Mr. Hall, once again, another good hearing. And if you have 
no more questions, then we will adjourn this hearing.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Richard A. Anthes, President, University Corporation for 
        Atmospheric Research (UCAR); Co-Chair, Committee on Earth 
        Science and Applications from Space, National Research Council, 
        The National Academies

Questions submitted by Representative Ralph M. Hall

Q1.  NASA's experience with mission cost estimates is to be kind, not 
good. Many missions have seen their costs exceed even the most generous 
estimates. What level of confidence would you associate with the 
``rough'' cost estimates ascribed to each of the recommended missions?

A1. The Committee stands by its estimates. The level of confidence 
associated with the cost estimates was given in Box 2-2 of the Decadal 
Survey report. The cost estimates are believed to vary from  50 
percent for the smallest missions to  30 percent for the larger 
mission category. The survey report notes that, in general, cost 
estimates depend directly on the exact measurement requirements for the 
eventual missions. It also notes that the cost uncertainty rises for 
missions scheduled later in the next decade and for missions with the 
greatest technology development needs.
    One historically large source of cost uncertainty is associated 
with technology development. When a mission's implementation depends on 
a technological advance, there's a risk that the mission will need to 
be delayed and that costs will increase if the advance doesn't proceed 
as expected. Effective mitigation of this cost risk involves early 
technology investment--and this is something that was strongly endorsed 
in our report. The committee suggests that NASA begin technology 
investments early to ensure the needed technologies are available 
before the mission implementation proceeds to the point where schedule 
delays incur large costs due to the large number of individuals 
entrained by the project (the so-called ``standing army'' problem).

Q1a.  Do your cost estimates represent a full mission cost, to include 
the cost of building the satellite, launch services, operations, data 
analysis and research, and reserves?

A1a. The estimates include pre-launch costs associated with the 
instrument(s), the spacecraft and the launch vehicle, system 
engineering and spacecraft integration, science algorithm and ground 
data system development, and education and outreach. Post-launch costs 
included mission operations, data downlink, processing and archiving, 
science data development and validation. Post-launch activity duration 
was assumed to be three years for the NASA-recommended missions and 
five years for the NOAA-recommended missions.
    These cost estimates do not represent a `full' mission cost because 
they do not include the cost of the scientific analysis of the mission 
data. These costs were assigned to the mission-supporting part of the 
NASA and NOAA budgets.

Q2.  You recommend that NASA increase its support for Research and 
Analysis to a level commensurate with ongoing and planned missions. 
What metric should NASA use to gauge R&A spending? Number of missions 
flying? Percentage of total program funding? How would you characterize 
the level of R&A funding currently provided in the Earth Sciences 
program?

A2. Historically NASA has invested approximately 50 percent of its 
funds for mission-supporting research. In the event that the NASA 
budget was restored to its year 2000 funding levels, the committee is 
recommending that the R&A and mission budgets be increased equally 
(i.e., maintain an approximate 50/50 split). This is our suggestion for 
the zero'th order metric for gauging R&A spending. If you want to 
consider metrics of the impact of R&A funding, some metrics for gauging 
this impact are the amount of satellite data available being used for 
analysis, the number of researchers supported, the number of peer-
reviewed publications resulting from the missions, and the amount of 
satellite data being used effectively in weather forecast models and 
other applications.

Q3.  In your testimony you state that the U.S. needs to continue to 
improve its climate models because those models are used in predicting 
El Nino and other seasonal weather patterns important to energy, water 
and agriculture management. Specifically which recommendations in the 
Decadal Survey relate to improving seasonal weather predictions?

A3. The following missions are identified as improving seasonal weather 
predictions, having direct impacts on energy, water, and/or agriculture 
management: GPSRO (temperature and water vapor profiles), GRACE-II 
(changes in aquifers), HyspIRI (nutrients and water status of 
vegetation, soil health), PATH (temperature and water vapor profiles, 
sea surface temperature), LIST (global shifts in vegetation patterns, 
effects of land management), SCLP (water storage in snowpacks), SMAP 
(soil moisture effect on vegetation and freeze/thaw state), SWOT (lake, 
wetland, and reservoir storage), 3D-Winds (three dimensional 
tropospheric winds, improves El Nino forecasts), and XOVWM (surface 
winds over oceans).

Q4.  In your testimony you say that due to declining budgets for Earth-
observing satellites, air quality forecasts will become less accurate 
in the near future. Please elaborate on which satellites currently 
provide information important for air quality forecasts and why you 
believe this capability will be compromised in the near future.

A4. Air quality is determined by how much particulate matter (aerosols) 
and trace gases (ozone, NO<INF>2</INF> and volatile organics) are in 
the air. Air quality forecasting is a relatively new field that 
combines chemistry and aerosol models with weather models, which are 
used to move pollutants around. Aerosol measurements are being made by 
MODIS on Aqua and Terra, MISR on Terra, and OMI on Aura. Trace gas 
measurements are being made by Aura. The Aura measurements include 
ozone, NO<INF>2</INF> and hydrocarbons (formaldehyde). These 
measurements are being used in air quality forecast models on an 
experimental basis.
    In the future, NPOESS will be making column ozone measurements with 
the OMPS instrument, however without the OMPS-limb sounding capability, 
we cannot estimate vertical profiles of tropospheric ozone. The OMPS 
limb instrument was deleted from the NPOESS payload in response to 
Nunn-McCurdy. OMPS will also not produce NO<INF>2</INF>, hydrocarbons, 
or aerosols as Aura OMI does--the instrument is not capable of making 
those measurements. We will still get some aerosol information from 
VIIRS on NPOESS, but no information over clouds or bright surfaces 
(like deserts) because VIIRS lacks the near UV channels used by OMI for 
those kinds of aerosol measurements.

Q5.  Acquiring, storing, and managing data comes at a significant cost. 
As we fly more sensors and gather more and precise measurements, how 
likely is it that the research community will argue that these 
capabilities must evolve into long-term data continuity missions? Of 
the seventeen recommended missions, how many of these would be one-time 
only missions that would not generate demand from the community for 
follow-on missions to maintain data continuity? Are NASA and NOAA at 
risk of being tasked with flying a greater number operational missions 
and gathering an increasing number of data sets?

A5. This is a great question, and one I cannot easily answer because 
the answer depends upon how useful the research observations are. Every 
research observation should be considered as a candidate for ultimately 
becoming part of an operational or sustained measurement system. The 
NRC has recommended in a previous report (Satellite Observations of the 
Earth's Environment-Accelerating the Transition of Research to 
Operations, NRC 2003) that an interagency transition office be set up 
that carefully evaluates the potential for every research observation 
to become operational. Cost-benefit considerations obviously will 
determine which observations are most valuable and should become 
operational. Not all research observations should be expected to become 
operational or sustained.

Questions submitted by Representative Ken Calvert

Decadal Survey Recommendations

Q1.  How should NASA and NOAA interpret the recommended mission list? 
Your report suggests this list as a minimum set and notes the 
imperative that each mission be flown. But based on the experience of 
other decadal surveys, NASA has been able to fund only a fraction of 
recommended missions. Should NASA and NOAA prioritize the missions in 
the order listed? If so, which mission do you believe should be a 
priority?

A1. The Committee is acutely aware that evolving constraints have 
historically altered well-laid plans. To respond, we established a 
series of decision strategies and rules to be used for guiding any 
programmatic restructure. The study of Earth is a system science--the 
knowledge we seek derives from the mission set as a whole, not any 
single mission. The current list thus includes no prioritization other 
than a recommended ordering for launch, which itself is a 
prioritization. Changing the program is not as simple as dropping one 
mission from the bottom of a list and retaining the others; any single 
change implies the need to readjust the overall program. For this 
reason, our guidelines clearly state that such programmatic changes 
should be subject to advice from the broad community of Earth 
scientists and users.
    At small budget deficiencies (e.g., 10 percent), the proposed 
schedule can be stretched out. At larger deficiencies, the guidelines 
for adjustments to the missions come into play.
    We emphasize again that the Committee believes the proposed mission 
set is indeed one the Nation both needs and can afford. It is a minimum 
mission set in the sense that its scope and budget meet an expectation 
of ``reasonableness.'' Anything less than the proposed program falls 
short of what we believe this nation should reasonably pursue; it would 
place us at risk for maintaining scientific progress and achieving 
expected societal benefits. Additional budget enhancements should not 
be ruled out, and would support an even stronger program, with missions 
of great scientific merit and substantial societal benefit readily 
identified as new resources come available.

Q2.  The Decadal Survey recommends restoring some climate sensors to 
NOAA's NPOESS program. This committee held three hearings on NPOESS in 
the 109th Congress and we learned that it's a troubled program, nearly 
$3 billion over-budget, and it faces tremendous technical challenges 
just to be able to meet the Nation's weather forecasting needs. Why 
should we add even more risk and potential cost to this program by 
restoring the climate sensors? What is the value to our citizens that 
would make the risk worth it?

A2. Important as weather sensors are, climate sensors are also 
important and cannot be neglected. Climate variability and change are 
among the most important environmental and societal factors affecting 
our future. So we have to meet the challenges of risk and cost of 
restoring key climate sensors. This may be accomplished in part by 
restoring a few climate sensors to NPOESS, AND launching some new 
missions as described in our report.
    Climate monitoring requires a continuous series of high quality 
calibrated data. The solar irradiance sensor and the Earth radiation 
budget sensor are key to understanding climate change and are part of 
an unbroken series of measurements starting in the early 1980s. The 
Committee recommended restoring these climate sensors to NPOESS because 
under the current Nunn-McCurdy only the cost of the sensor was 
required--the IPO promised to pay for integration--this is the lowest 
cost approach. But if further deterioration of the NPOESS program 
occurs, it makes more sense to place these sensors on small spacecraft 
as has been done in the past (e.g., ACRIMSAT).

Venture Class Missions

Q3.  Your report recommends creation of a new competed mission line 
(Venture class) to replace the Earth System Science Pathfinder program, 
arguing that the latter has become a ``competitive means for 
implementing NASA's strategic missions.'' Could you elaborate on this 
criticism?

A3. The recommendation for a Venture class of missions is to encourage 
proposals for exploratory missions that are ``out of the box''--ideas 
that the experts in NASA, on our committee, or in the broader community 
have not yet thought of. These should be creative, revolutionary ideas 
that could have transformative effects on science and applications. 
Venture class missions are NOT intended as a way to implement any of 
the 17 recommended missions.

Weather Prediction

Q4.  NOAA was a co-sponsor of the Decadal Survey, yet your report has 
only three missions for NOAA compared to 15 for NASA. NOAA provides 
weather forecasts and warnings for the Nation--given its vital role, 
why did you have so few recommendations for NOAA?

A4. There were a number of factors that led to this result. Missions 
that were assigned to NOAA were those that were relatively low cost, 
ready to go operational, AND met a large number of the Panel's 
prioritization criteria. The fact that the NPOESS and GOES programs 
were (and still are) in a state of flux, with very uncertain budgets, 
was also a factor. Finally, the emphasis of the present plans for 
NPOESS and GOES is on weather forecasts and warnings, and so many of 
our recommendations addressed other important Earth science issues.

Q5.  In your testimony you state that due to declining budgets for 
Earth-observing satellites, weather forecasts may start becoming less 
accurate. However, last year this committee heard from the federal 
agencies responsible for weather forecasting (NOAA and the Air Force) 
that maintaining operational weather forecasting capabilities is their 
top priority and that future plans for weather satellites such as 
NPOESS and GOES-R will be just as good as, if not much better than, 
current weather satellites. Your claim contradicts these officials, so 
please elaborate on why you believe weather forecasts may start 
becoming less accurate.

A5. Please let me be blunt here. Unfortunately, the recent track record 
of projections of the federal agencies responsible for space observing 
programs has not been reassuring, and even now the future of NPOESS and 
GOES, the observational foundations of our weather prediction 
capabilities from space, are uncertain. The steady increase of forecast 
and warning accuracies over the past 30 years has not been an 
accident--it has been the result of more and better observations and 
models. If the number of observations, which peaked in about 2006, 
continues to decline, at some point the trend of increasing forecast 
accuracy will reverse and the forecasts and warning accuracies will 
begin to decline. We do not know when or if this unfortunate point will 
be reached, but it is a risk as I stated unless we take action.

Q6.  Please describe some examples of NASA research missions from the 
1970's or 1980's that demonstrated capabilities now used for 
operational purposes.

A6. All of the current major operational satellite programs in NOAA can 
be traced to NASA missions. The current Polar orbiting operational 
satellites (POES) were derived from NASA's TIROS-N satellite launched 
in 1978. The NOAA GOES program can be traced back to the NASA 
Synchronous Meteorological Satellite launched in 1974. Finally, the 
Landsat series of environmental sensors can be traced back to the NASA 
Earth Resources Technology Satellite launched in 1972.

Q7.  One key factor in the program design and cost of new missions is 
the availability of expendable launch vehicles. NASA acquires launch 
vehicles for science missions from commercial providers. How well is 
your recommended mission set matched to existing and planned commercial 
launch vehicle capabilities?

A7. Launch vehicle availability and cost have become moving targets. 
Launch vehicle costs, in particular, are very hard to pin down. The 
committee used the best available launch vehicle cost information 
(based on recently launched and known costs for currently planned 
missions). Specifically, the Decadal survey missions assumed the use of 
Pegasus, Taurus, or Delta II/IV launch vehicles. However, forward-
looking launch vehicle cost estimates are subject to a large degree of 
uncertainty. Spiraling launch costs threaten the accuracy of any cost 
estimate until a contract is signed, and represent a large uncertainty 
in any cost estimate.
    The futures of the launch vehicles assumed by the panel are 
uncertain, and this is a troublesome situation. If moderate capability 
launch vehicles are not available at a reasonable cost, an important 
element of programmatic robustness--our decision to recommend more, 
smaller missions rather than fewer many-instrument missions--becomes 
compromised. Should Delta-II class launch vehicles become unavailable, 
for example, the likely mitigation would be to pursue ``co-manifested'' 
launches, where multiple satellites share a larger launch vehicle. This 
is not as easy or straight forward as it might sound, as larger launch 
vehicles generally have larger vibrational loads during launch (meaning 
that the satellite structural design would have to be adapted), and 
would require ride-sharing missions to utilize similar orbits.
    The committee is aware of private sector efforts to build low cost 
launch vehicles, which, if successful, will substantially mitigate 
these concerns. However, at present such launch vehicles have not been 
demonstrated successfully. The availability and cost of launch vehicles 
for scientific missions remains a serious concern of the committee.

Interagency Cooperation

Q8.  What unique skills and expertise do you think NASA has in Earth-
observing systems, and are the necessary processes for interagency 
cooperation in place to allow the country to benefit from those NASA 
capabilities? Can you please do the same for NOAA?

A8. In answering this question, I must necessarily generalize my 
response. NASA and NOAA, while having great records overall, do not 
have spotless records. Nevertheless, both agencies have many 
capabilities, skills, and expertise to be leveraged for Earth 
observation systems.
    NASA has a long history of pioneering Earth research observation 
from space and in laying the groundwork for operational systems (see # 
11, above). NASA expertise is primarily in technology, science, and 
engineering. NASA has demonstrated capability to manage technology 
infusions into missions, manage externally-developed technology 
contracts, and manage commercial suppliers and partner contracts with 
strong oversight. The more extensive competitive and peer-reviewed 
mission selection process at NASA has allowed for a more complete 
vetting of mission requirements, risks, and costs. NOAA has a strong 
history of operating ground systems for its operational programs, 
distributing data to a wide range of users, and producing decision-
support tools and capabilities to directly serve well-specified needs. 
NOAA mission implementation typically is provided by a commercial 
contractor, with varying degrees of oversight.
    In terms of knowing and understanding their user communities, NASA 
is tightly connected with the science and research community, while 
NOAA is more tightly connected with its operational end-users 
(meteorologists, the public, and decision-makers).
    In order to use the strengths of both NASA and NOAA in a manner 
which maximizes benefit to society, interagency cooperation is 
essential. Currently, the necessary processes are not completely in 
place to optimize interagency cooperation. That is why the Decadal 
Survey recommends that the Office of Science and Technology Policy, in 
collaboration with the relevant agencies, and in consultation with the 
scientific community, should develop and implement a plan for achieving 
and sustaining global Earth observations. This plan should recognize 
the complexity of differing agency roles, responsibilities, and 
capabilities as well as the lessons from implementation of the Landsat, 
EOS, and NPOESS programs.
    Among the key challenges confronting the two agencies are (1) the 
need for long-term, continuous, stable research focused observations of 
the Earth system that are distinct from the observations needed for 
operational weather prediction and (2) the need to systematically 
develop future operational systems in addition to the one for weather 
prediction. In order to address these challenges NASA and NOAA must 
improve their interaction early in the design process and overcome the 
natural disconnect that occurs because the two agencies have 
independent budget formulation processes and accounting systems.

                   Answers to Post-Hearing Questions

Responses by Berrien Moore III, University Distinguished Professor, 
        Director, Institute for the Study of Earth, Oceans, and Space, 
        University of New Hampshire; Co-Chair, Committee on Earth 
        Science and Applications from Space, National Research Council, 
        The National Academies

Question submitted by Chairman Bart Gordon

Q1.  Please elaborate on the consequences of not executing the program 
recommended by the Decadal Survey, especially with respect to the 
societal applications of the observations and the importance of 
preserving particular time series, such as total solar irradiance.

A1. The consequence is simply that without the information, and then 
the scientific community will not have the basis for providing 
information to the country. It is hard to point to a specific 
consequence since there will continue to be some information on the 
planet from other sources. It is a bit like the question, what are the 
consequences if we did not conduct a census or monitor economic 
indicators. However, the question is certainly reasonable, and I shall 
address it by focusing on selected missions.
    After CERES ceases on TRIMM and Total Solar Irradiance sensor on 
Glory, then we would cease to have the most basic climate forcing 
information, Given the fact that we ``know'' that the concentration of 
greenhouses gases will continue to increase in the atmosphere for at 
least the next 50 years, and that this change will force a change in 
the Earth energy balance, then we must monitor that energy balance and 
the solar output, if we are going to be able to make credible climate 
statements including forecasts. This is the reason, we recommend the 
CLARREO Mission.
    Another example, the ASCENDS mission: We know without any question 
that the atmospheric concentration of CO<INF>2</INF> has risen by 
almost 40 percent since the middle of the last century, and that the 
cause of this rise is primarily fossil fuel combustion and secondarily 
land-use change. We also know that about 50 percent of the released 
CO<INF>2</INF> from fossil fuel combustion and land-use change is no 
longer in the atmosphere because it has been sequestered by the land 
biosphere and the oceans in approximately equal proportions. However, 
the proportional balance between land and oceans varies in time and 
space. The current state of the science cannot account for the growth 
rate and inter-annual variations of atmospheric CO<INF>2</INF> with 
confidence. The variability of the rate of increase in the 
concentration of CO<INF>2</INF> in the atmosphere cannot be explained 
by the variability in fossil fuel use; rather it appears to primarily 
reflect changes in terrestrial ecosystems that are connected with 
large-scale weather and climate modes. Finally and most importantly, we 
do not know the geographic distribution of the land and ocean sources 
and sinks of CO<INF>2</INF>. This uncertainty is important. As nations 
seek to develop strategies to manage their carbon emissions and 
sequestration, the capacity to quantify the present-day regional carbon 
sources/sinks and to understand the underlying mechanisms are central 
to prediction of future levels of CO<INF>2</INF>, and thereby, informed 
policy decisions, sequestration monitoring and carbon trading.
    The current set of direct in situ atmospheric observations is far 
too sparse for this determination; moreover, the upcoming Orbiting 
Carbon Observatory, which will be a ``Pathfinder'' for ASCENDS, cannot 
make these measurements (because of limitations of sunlight) over many 
of the primary fossil fuel burning areas (Moscow, London, etc.) in the 
winter time nor is it able to make any nighttime measurements and hence 
OCO will not be able to determine regional sources and sinks of 
CO<INF>2</INF>. ASCENDS will provide the measurements necessary to make 
this regional determination.
    Similar statements can be made for every mission--specific 
information is needed (like sources and sinks for carbon dioxide) and 
specific missions are recommended to obtain this information. We 
believe and the Survey documents that each mission addresses important 
questions by society. Without the information, then we will be less 
equipped to address a specific societal issue. We also framed the 
entire program at a budget level for Earth observation that is 
comparable to the levels of the 1990s.

Questions submitted by Representative Ralph M. Hall

Q1.  NASA's experience with mission cost estimates is, to be kind, not 
good. Many missions have seen their costs exceed even the most generous 
estimates. What level of confidence would you associate with the 
``rough'' cost estimates ascribed to each of the recommended missions?

     Do your cost estimates represent a full mission cost, to include 
the cost of building the satellite, launch services, operations, data 
analysis and research, and reserves?

A1. We asked experts at Goddard, JPL, and Langley to provide informal 
cost analysis, not by particular mission advocates, but by seasoned 
mission planners who evaluated the costs of all proposed missions in a 
consistent objective way. These cost estimates were then reviewed by 
members of the survey team, some of who have extensive industrial 
experience in spacecraft design. There were also external reviewers of 
the survey with mission management experience, and they did not find 
the cost estimates to be unreasonable. The mission's costs provided in 
Part II of the Report, do not include ground costs such as data 
analysis and longer-term mission management; however, these costs are 
included in the growth wedge that we recommend in the ``Mission 
Supporting'' portion of the budget in Chapter Two.
    Most important, the Decadal Survey is informing NASA, NOAA, USGS; 
Congress, and the American public what measurements need to be made and 
what missions flown so that we can understand our planet and apply this 
understanding to societal benefits--benefits that will repay the Nation 
many times over. This answer does not change even if our cost estimates 
have small or modest systematic errors. Moreover, we recommend in 
Chapter Three of the Decadal Survey steps to take if costs grow beyond 
our estimates.

Q2.  You recommend that NASA increase its support for Research and 
Analysis to a level commensurate with ongoing and planned missions. 
What metric should NASA use to gauge R&A spending? Number of missions 
flying? Percentage of total program funding? How would you characterize 
the level of R&A funding currently provided in the Earth Sciences 
program?

A2. I would recommend that we rest R and A, in real terms, to the level 
in 2000 budget. The accomplishments of the 1990s were extraordinary 
and, in fact, this is what we are exploiting today.

Q3.  Acquiring, storing, and managing data comes at a significant cost. 
As we fly more sensors and gather more and precise measurements, how 
likely is it that the research community will argue that these 
capabilities must evolve into long-term data continuity missions?

A3. Most of them since the data needs are on-going. This is the simple 
fact of our situation on the planet. I do believe that costs can be 
driven down by better management and through technological 
advancements. We must avoid the NPOESS approach and the mismanagement.

Q3a.  Of the seventeen recommended missions, how many of these would be 
one-time only missions that would not generate demand from the 
community for follow-on missions to maintain data continuity?Are NASA 
and NOAA at risk of being tasked with flying a greater number of 
operational missions and gathering an increasing number of data sets?

A3a. I believe that almost all will need to become ``operational.'' We 
believe that the country needs to recognize this need and to consider 
new organizational structures for meeting this need in a reliable, 
cost-effective manner.

Q3b.  Are NASA and NOAA at risk of being tasked with flying a greater 
number of operational missions and gathering an increasing number of 
data sets?

A3b. Yes, but we also believe that we can do a much than the 
performance of the recent past. We simply must recognize the challenge 
before us.
    In sum, we are in need of knowledge of the Earth. We know that 
there is that the planet's environment is changing on all spatial 
scales including global, and change is rapid, likely more rapid than at 
any time in human history. Many of these changes are occurring because 
of human activity. These human-induced changes are over and above the 
stresses imposed by the natural variability of a dynamic planet.
    The changes cascade through the Earth's environment in ways that 
are difficult to understand and often impossible to predict. At the 
least, these human-driven changes in the global environment will 
require that societies develop a multitude of creative responses 
including strategies for mitigation and adaptation. The linked 
challenges of confronting and coping with global environmental changes 
and addressing and securing a sustainable future is daunting and 
immediate, but they are not insurmountable. The challenges can be met, 
but only with a new and even more vigorous approach to observe and 
understanding our changing planet.

Questions submitted by Representative Ken Calvert

Decadal Survey Recommendations

Q1.  How should NASA and NOAA interpret the recommended mission list? 
Your report suggests this list as a minimum set and notes the 
imperative that each mission be flown. But based on the experience of 
other decadal surveys, NASA has been able to fund only a fraction of 
recommended missions. Should NASA and NOAA prioritize the missions in 
the order listed? If so, which mission do believe should be a priority?

A1. We believe that the list represents the appropriate balance of 
missions in roughly the appropriate order (considering costs, 
technology issues, and science balance). We recognize that there could 
be a ``number of missions'' shock, and we could have ``packaged'' the 
missions on three larger platforms and reducing our recommended 
missions to three, which could have avoided this ``number of missions'' 
shock. This, however, would not have been wise since it would not 
produce a robust program. We also note that the missions listed in the 
last time-frame (2016-2020) would likely be revisited by the next 
``Decadal Survey,'' which is consistent with other Decadal Surveys. We 
believe that we have the right order, but again, as we note in our 
recommendations, the order could be varied slightly because of emerging 
science or policy priorities or because of technological readiness. We 
again stress the importance of embracing the Survey and beginning work 
on approximately half (seven to eight missions) of the missions at 
roughly $10M per mission per year to address key technological issues 
or costs concerns. Start these now with extended Phase A efforts--not 
simply ``study'' contract. Finally, we would like to again warn against 
growing any of the missions by increasing the requirements--this 
warning is made in the Survey, and we already hear reports that it is 
happening. We must not let the perfect become the enemy of the good.

Q2.  The Decadal Survey recommends restoring some climate sensors to 
NOAA's NPOESS program. This committee held three hearings on NPOESS in 
the 109th Congress and we learned that it's a troubled program, nearly 
$3 billion over-budget, and it faces tremendous technical challenges 
just to be able to meet the Nation's weather forecasting needs. Why 
should we add even more risk and potential cost to this program by 
restoring the climate sensors? What is the value to our citizens that 
would make the risk worth it?

A2. We understand that the NPOESS program is a great disappointment. 
The possible causes for the programmatic difficulties are discussed in 
Chapter Three of our Report. We also recognize that the cost-benefit 
ratio of NPOESS compared with POES and DMSP is very troubling. NPOESS 
was sold as both a climate and weather program, and it seems 
appropriate to retain some climate capability. Moreover, we believe 
that our recommendations are not expensive and are, in fact, probably 
in the noise of the planned program and would not increase the program 
risk. This said, we share the Congress's disappointment and concern 
(see Response to Question #4 below) in the NPOESS program. Finally, the 
failure of the NPOESS program to meet the originally observational 
schedule and plan increases the importance of the recommended NASA 
missions.

Venture Class Missions

Q3.  Your report recommends creation of a new competed mission line 
(Venture class) to replace the Earth System Science Pathfinder program, 
arguing that the latter has become a ``competitive means for 
implementing NASA's strategic missions.'' Could you elaborate on this 
criticism?

A3. The criticism is four-fold. First, beyond the Glory, Landsat 
Continuity Mission, and the GPM, there is no planned program except for 
the Earth System Science Program. This makes no sense--a program must 
have planned priorities missions that address recognized needs. This we 
have tried to set forth in the Decadal Survey. The second problem is 
that it is very difficult to address the technology needs for a program 
that is primarily composed of unnamed missions, such as the Earth 
Science Pathfinders: How can one know in what technologies to invest? 
Thirdly, there are missions, which are needed that are more expensive 
than the ESSP missions, and yet nothing is provided for these medium to 
larger class missions. Finally, the promised timeliness (one or two 
missions every three years) for the ESSP program is a broken promise.

Weather Prediction

Q4.  NOAA was a co-sponsor of the Decadal Survey, yet your report has 
only three missions for NOAA compared to 15 for NASA. NOAA provides 
weather forecasts and warnings for the Nation--given its vital role, 
why did you have so few recommendations for NOAA?

A4. We restricted greatly our recommendations to NOAA because of the 
damaging cost-growth of the NPOESS and GOES programs. We simply could 
not see the logic in asking NOAA to do much beyond the modest but high 
priority recommendations that were made to NOAA in the Decadal Survey 
(see again my Response to Question #2). We would also point out that 
Chapter Three contains additional NOAA-focused recommendations (e.g., 
production of Climate Data Records from NPOESS). The programmatic 
failure of NPOESS is very damaging.

Q5.  Please describe some examples of NASA research missions from the 
1970's or 1980's that demonstrated capabilities now used for 
operational purposes.

A5. For this early period, one would site primarily the Landsat plus 
the early NASA missions in both polar orbit and geostationary (e.g., 
cloud imaging) that set the stage for POES (and DMSP) and GOES. More 
recently, the ocean topography mission (TOPEX), the AIRS instrument 
(measuring humidity and temperature profiles) on EOS/Aqua, the TRIMM 
mission, and the sea surface winds from QucikScat are all being used 
operationally.

Launch Vehicles

Q6.  One key factor in the program design and cost of new missions is 
the availability of expendable launch vehicles. NASA acquires launch 
vehicles for science missions from commercial providers. How well is 
your recommended mission set matched to existing and planned commercial 
launch vehicle capabilities?

A6. This is a very important question. There are many reasons 
(robustness, reduction in risk, smooth(er) budget ramps, flexibility) 
that support our recommendation to fly smaller, less complex payloads 
rather than the larger platforms such as NPOESS. The one drawback is 
the reduce launch capabilities (e.g., no more Delta-IIs) that may face 
the USA in the future coupled with the ``skyrocketing'' (pardon the 
pun) launch costs. This is a national problem that goes beyond the 
Decadal Survey, but it certainly has a negative impact on the mission 
recommendations of the Survey. This issue should be addressed.

Interagency Cooperation

Q7.  What unique skills and expertise do you think NASA has in Earth-
observing systems, and are the necessary processes for interagency 
cooperation in place to allow the country to benefit from those NASA 
capabilities? Can you please do the same for NOAA?

A7. Focusing on the word ``unique'' somewhat restricts my response. 
NASA has a unique technological capability in both breadth and depth, 
in both the development of technologies and the management of 
technologies. Part of the NPOESS problem is that this capability was 
not adequately exploited. There are indications that the NASA-NOAA 
interaction is moving back to a position whereby NASA can better assist 
NOAA in developing and applying advance space-based technologies, but 
for NPOESS it may be too little too late. NASA also has a solid 
scientific staff, but it is not unique. In fact, the university 
community collectively is far stronger.
    For NOAA, the ``unique'' capability is the ``operational'' 
infrastructure to exploit space-based date for weather forecasting. 
This is of very high quality and a unique national asset. I think that 
the NASA-NOAA (and with the Air Force and Navy) interaction through the 
Joint Center for Satellite Data Assimilation forms a firm foundation 
that assist NOAA's capability (and the DOD's) to forecast the weather, 
but this could be improved and expanded upon-particularly in the area 
of climate research.

                   Answers to Post-Hearing Questions

Responses by James Geringer, Director of Policy and Public Sector 
        Strategy, Environmental Systems Research Institute (ESRI)

Questions submitted by Representative Mark Udall

Q1.  The Decadal Survey report discusses issues beyond the climate 
change issue, such as population increases near earthquake faults, 
shortages of clean and accessible fresh water, degradation of 
terrestrial and aquatic ecosystems, increased in soil erosion and 
declines in fisheries. Do the Recommended space missions help address 
such non-climate challenges and societal benefits? What other societal 
issues should be addressed?

A1. The Decadal Survey report highlights many other Earth science areas 
of practical, economic and societal benefit. The recommended space 
missions help address such non-climate challenges. However, NASA's 
budget priorities focus on just a few larger missions such as the 
Global Precipitation Mission (GPM) and Landsat Data Continuity Mission 
(LDCM) which seems to preclude other important environmental 
observations such as crustal stress and soil characterization.
    The Decadal Survey does recommend missions that would monitor 
crustal movements and determine changes in strain and stress through 
the earthquake cycle. We should also enable better assessments of 
potential and actual damage from natural disasters and help target 
mitigation, recovery and relief activities.
    Earth observation can dramatically benefit the competitiveness of 
our U.S. economy. Ocean observations are vital to transportation and 
trade. Improved weather forecasting enables more efficient energy use. 
Success of the emergence of carbon trading market will significantly 
depend upon our ability to monitor for compliance and improvements. 
Change detection that is possible only with remote sensing allows 
better and more timely policy decisions.
    The NASA budget request does not appear to contain sufficient funds 
in the 2008-2012 timeframe to seriously begin any of these important 
missions. Instead, nearly all of the funds available for mission 
development are directed at just the two missions, the Global 
Precipitation Mission and the Landsat Data Continuity Mission, both 
follow-ons of previous missions. The LDCM is not widely supported as 
the type of satellite that would recognize trends in today's global 
setting. For instance, trends in world population growth would point to 
two very pressing needs: adequacy of food and water. Space missions 
should be tied to real world problems, not just arcane research goals.
    Access to NASA data has been an issue. We need a more streamlined 
process to enable public access to remotely sensed data for the public, 
educational communities, agricultural producers and industries.
    Compliance with industry standard file formats along with well-
documented interpretation of these remotely sensed data products would 
enable utilization of data to support weather forecasting, disaster 
management, and commercialization.
    Based upon anecdotal information, a number of people are not happy 
with the configuration and approach being taken for the LDCM. I have 
received letters from academics, scientists and policy-makers, 
including the Chair and Vice-Chair of the Western Governors Association 
who want specific water monitoring capability enabled with a thermal 
sensor which is not now included in LDCM planning. With what appears to 
be a growing disagreement on LDCM capabilities and cost, I recommend 
that a roundtable be convened by a neutral third party to examine the 
Landsat Data Continuity Mission approach. An organization such as the 
Institute for Global Environmental Strategies (IGES) could bring 
together the interested scientists and other parties to arrive at a 
community consensus.

Q2.  What kind of Earth- and ocean-based systems are needed to 
complement the space missions?

A2. We need a system such as the Integrated Earth Observation System 
(IEOS), consisting of space, ground, airborne and ocean-based sensors, 
both public and private, that can gather information and integrate it 
for researchers and decision-makers alike with a maximum of efficiency 
and a minimum of duplication.
    The President's FY 2008 budget recommends partial funding for the 
proposed Integrated Ocean Observing System (IOOS) to develop regional 
networks of remote ocean sensors, including biological sensors, that 
would monitor the general health of the ocean. Much more is needed so 
that we can better manage our coasts, improve hurricane and tsunami 
predictions, and improve marine operations. IOOS would include space, 
land, ocean and airborne sensors and application programs.
    An excellent example of what IEOS and IOOS should be is the 
National Weather Service (NWS) within the National Oceanic and 
Atmospheric Administration (NOAA). The NWS provides the world benchmark 
for collecting and integrating weather observations from various 
sources across the globe to produce critical information that protects 
U.S. citizens and property. The forecasts that result from combining 
observations from space-based satellites, ocean buoys, ground-based 
systems and aircraft impact U.S. citizens daily in a wide variety of 
ways. The integrated information approach of the NWS should be scaled 
up to include other programs within and across several federal 
agencies.
    Meaningful data gathering systems are possible at much less cost 
than space based platforms. Constellations of lower cost satellites 
have the potential to deliver more data more often at less cost than 
single, complicated, one-of-a-kind expensive satellites.
    Ocean based systems of observation such as Royal Caribbean's 
``Explorer of the Seas'' with its ocean and atmospheric sciences labs 
are an excellent example of low cost but very effective private 
partnership that should be encouraged and extended to other cruise 
ships and ocean going platforms. They provide an excellent means to 
verify on-the-water observations and collect long-term data sets at a 
fraction of the cost of other methods. One person who has been the 
visiting scientist three times aboard ship and has experienced it all 
first hand, describes it as a ``very neat and a great way to improve 
ocean literacy!''

Q3.  In your testimony, you identified leadership issues as impediments 
to effectiveness of the U.S. Earth Observations Program and to 
executing the vision and recommendations of the Decadal Survey. How 
should these issues be addressed?

A3. We must answer the simple question ``Who's in charge?''
    Current Earth observation systems are highly fragmented with 
different systems that were set at different times by different 
organizations and overseen by different Congresses for a variety of 
different reasons. Few are cross-correlated to complement each other's 
efforts. We do not have a coherent, integrated system to gather data, 
disseminate it through public portals for research and analysis, 
analytical tools to determine proper choices that can enable public 
policy-makers and private business leaders make better decisions. We 
risk becoming dependent upon other world countries to be the primary 
source of our data.
    For example, the USDA is no longer using Landsat imagery for 
operational monitoring applications because of the data gap. Our 
current capability provides no global coverage for crop estimates and 
food production, no adequate revisit cycle for verification and trend 
analysis and it is not the best value for USDA. The solution for USDA/
Foreign Agricultural Service is to contract with India to obtain 
imagery supplemented by information from commercial sources such as 
GeoEye.
    We have recommended the convening of a high level commission that 
would have specific timelines and tasks to recommend action, 
legislation and funding that would be carried out by a cabinet level 
agency. Creation of an IEOS program office would enable us to forecast 
events in our oceans and on land even before we see changes in the 
atmosphere. Connecting disparate observations into national systems 
would enable us to anticipate and even prevent key environmental 
problems or at least detect them earlier to mitigate the effects. We 
should leverage the time and resources already invested in systems 
development, data collection and analysis, and modeling to create a 
comprehensive and actionable vision of our world.
    I support the Decadal Survey recommendation for establishment of an 
office of coordination within OSTP. But we need more than coordination. 
We need leadership enabled with authority and motivated by passion, not 
just another block on the organizational chart. As part of a national 
strategy, we should address how to more effectively move from research 
to operations. Our global competitiveness depends on how quickly and 
effectively we act.

Questions submitted by Representative Ken Calvert

Q1.  In the agricultural industry, to what degree is remote sensing 
data conveniently available to individual farmers to help them plan and 
manage their crops?

A1. A moderate amount of remote sensing data are conveniently 
available, however, the raw data are of limited use unless they are 
incorporated into a decision support tool that merges the data with 
other information in the context of a farmer's needs. Also, the remote 
sensing data must be timely and of a sufficient scale to make them 
useful in an agricultural setting.
    A wide range of remote sensing data from government sources is 
available to farmers. This includes information on weather and climate, 
imagery of fields and roads (base data layers), elevation, and 
hydrology. The private sector is another important source of data. 
Private companies tend to specialize in custom data that are more 
current and of higher resolution. For example, a farmer may request 
that high resolution aerial imagery be taken of farmland at a specific 
time in the growing season. Meteorological data from the National 
Weather Service and private sector sources is accessed by farmers on a 
regular basis.
    The U.S. Department of Agriculture sponsors the National 
Agriculture Imagery Program (NAIP), which acquires imagery during the 
growing seasons in the continental United States. Other federal 
agencies and a number of private sector companies develop a range of 
remote sensing data that is used for agricultural purposes.

Q2.  Can they get the data off the Internet?

A2. Yes, but with a very significant caveat; namely, Internet access 
and speed.
    Remote sensing data are available by way of the Internet from 
public and private sources both within and outside the United States. 
Remote sensing data from government sources are typically available at 
no or low cost. Private sector data are normally available for a fee.
    The primary sources of information from the Federal Government are 
the U.S. Department of Agriculture (USDA), National Oceanic and 
Atmospheric Administration (NOAA), and the U.S. Geological Survey 
(USGS). The National Aeronautics and Space Administration (NASA) is 
often a partner contributing to the development of these data through 
the development, launch, and operation of satellite systems. Some state 
agencies also make remote sensing data available.
    Examples of government data used for agricultural purposes are:
USDA

        <bullet>  Digital quadrangles and mosaics via the National 
        Agriculture Imagery Program (NAIP).

NOAA

        <bullet>  Weather and forecast information from the National 
        Weather Service

USGS

        <bullet>  LandSat Imagery (base maps)

        <bullet>  Orthoimagery (Digital Ortho Photos, base maps)

        <bullet>  Elevation (Digital Elevation Models)

        <bullet>  Hydrography

        <bullet>  Land Cover (MODIS)

    Examples of Internet-based information resources from the private 
sector or foreign governments are:

        <bullet>  High resolution aircraft-based imagery from numerous 
        private sector sources

        <bullet>  High resolution satellite-based imagery from 
        DigitalGlobe (U.S.)

        <bullet>  High resolution satellite-based land imagery from 
        SPOT (France)

    Information is of little value if agricultural producers don't have 
access or sufficient bandwidth. The National Agricultural Statistics 
Service most recent survey shows that 51 percent of U.S. farms have 
Internet access. The percentage increases to 72 percent at the highest 
level ($250,000+ income) but the number of producers at that level is 
small. Most producers who have Internet access use a dial-up modem 
which limits information and usage. The Pew Internet and American Life 
Project found that agricultural producers and rural communities do not 
have the broadband access that has become a basic necessity for 
economic development, small business growth, and education.
    People in urban areas are twice as likely to have broadband access 
as their rural counterparts.
    Actions by Congress should promote open access, meaningful 
competition, and innovation at the federal and State level for high-
capacity rural broadband Internet access through public and private 
investment partnerships.

Q3.  Is it routinely provided by the government through a private 
sector source?

A3. At present, the process of accessing data is cumbersome and time 
consuming. If farmers are to make more routine use of government data, 
the process for identifying and accessing it must be streamlined. There 
are great benefits to farmers in making use of remote sensing data for 
farm management and precision agriculture. A direct benefit would be 
more efficient use of fertilizers and pesticides. It is important for 
federal agencies to make use of state-of-the-art data storage and 
delivery mechanisms to make data readily available to farmers and to 
private sector firms who provide information services to the 
agricultural sector.
    Few farmers have the capacity to directly download and analyze 
remote sensing data. To be useful, a decision support tool is required 
to format the data, integrate it with other information, and display it 
in a useful format. A private sector company that specializes in 
providing this service for the agricultural industry is ZedX Inc. 
(www.zedxinc.com). Their decision support system called ``AgFleet'' is 
used to manage more than 15 million acres of agricultural land in North 
America. The tool makes use of remote sensing and other data from 
government and private sector sources to guide decisions about 
planting, harvesting, and application of fertilizers, pesticides and 
other chemicals. Crop consultants and dealers of seed, fertilizer, 
pesticides, and other agricultural chemicals typically provide this 
analytical service to farmers. The service allows them to determine 
what products should be applied when, where, and at what 
concentrations, and to track the financial costs and benefits of their 
farm management practices.

Q4.  Can you offer an estimate of the percentage of farmers that access 
this type of data on a periodic basis?

A4. At present, a relatively small percentage of farmers nationally 
make use of advanced precision agricultural techniques which require 
access to remote sensing data on a periodic basis. This applies 
primarily to grain crops. A larger percentage of farmers make some use 
of remote sensing imagery as base data layers for farm management 
purposes. Again, few farmers make direct use of remote sensing data on 
a regular basis. Most often, crop consultants, major suppliers of seed 
and chemicals, and agricultural extension services develop information 
products for farmers that often incorporate remote sensing data.
    Timeliness, availability, and cost of information are the major 
determining factors in the use of remote sensing data in agriculture. 
If timely, high quality data were available to farmers at low or no 
cost from either government or private sources, the number of farmers 
making use of precision agriculture practices would increase greatly. 
This would increase the profitability of farm operations by increasing 
crop yields and reducing expenses associated with agricultural 
chemicals. It would also decrease residues on agricultural products, 
and would minimize the runoff of chemicals into waterways.
    As Congress considers the new farm bill, it should consider ways to 
encourage federal agencies to make high quality remote sensing data 
more readily available to farmers, and it should provide incentives for 
farmers to make use of precision agriculture techniques and decision 
support tools.


</pre></body></html>
